<html>
<title> - HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2007 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED NINTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 109-102]
 
                                HEARING
                                   ON
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2007
                                  AND
              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                      BUDGET REQUEST FROM THE U.S.

                          PACIFIC COMMAND AND

                           U.S. FORCES KOREA

                               __________

                              HEARING HELD

                             MARCH 9, 2006

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                    U.S. GOVERNMENT PRINTING OFFICE
32-986                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Ninth Congress

                  DUNCAN HUNTER, California, Chairman
CURT WELDON, Pennsylvania            IKE SKELTON, Missouri
JOEL HEFLEY, Colorado                JOHN SPRATT, South Carolina
JIM SAXTON, New Jersey               SOLOMON P. ORTIZ, Texas
JOHN M. McHUGH, New York             LANE EVANS, Illinois
TERRY EVERETT, Alabama               GENE TAYLOR, Mississippi
ROSCOE G. BARTLETT, Maryland         NEIL ABERCROMBIE, Hawaii
HOWARD P. ``BUCK'' McKEON,           MARTY MEEHAN, Massachusetts
    California                       SILVESTRE REYES, Texas
MAC THORNBERRY, Texas                VIC SNYDER, Arkansas
JOHN N. HOSTETTLER, Indiana          ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
JIM RYUN, Kansas                     MIKE McINTYRE, North Carolina
JIM GIBBONS, Nevada                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          ROBERT A. BRADY, Pennsylvania
KEN CALVERT, California              ROBERT ANDREWS, New Jersey
ROB SIMMONS, Connecticut             SUSAN A. DAVIS, California
JO ANN DAVIS, Virginia               JAMES R. LANGEVIN, Rhode Island
W. TODD AKIN, Missouri               STEVE ISRAEL, New York
J. RANDY FORBES, Virginia            RICK LARSEN, Washington
JEFF MILLER, Florida                 JIM COOPER, Tennessee
JOE WILSON, South Carolina           JIM MARSHALL, Georgia
FRANK A. LoBIONDO, New Jersey        KENDRICK B. MEEK, Florida
JEB BRADLEY, New Hampshire           MADELEINE Z. BORDALLO, Guam
MICHAEL TURNER, Ohio                 TIM RYAN, Ohio
JOHN KLINE, Minnesota                MARK UDALL, Colorado
CANDICE S. MILLER, Michigan          G.K. BUTTERFIELD, North Carolina
MIKE ROGERS, Alabama                 CYNTHIA McKINNEY, Georgia
TRENT FRANKS, Arizona                DAN BOREN, Oklahoma
BILL SHUSTER, Pennsylvania
THELMA DRAKE, Virginia
JOE SCHWARZ, Michigan
CATHY McMORRIS, Washington
MICHAEL CONAWAY, Texas
GEOFF DAVIS, Kentucky
                   Robert L. Simmons, Staff Director
                Lynn Williams, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                    Heather Messera, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2006

                                                                   Page

Hearing:

Thursday, March 9, 2006, Fiscal Year 2007 National Defense 
  Authorization Act--Budget Request from the U.S. Pacific Command 
  and U.S. Forces Korea..........................................     1

Appendix:

Thursday, March 9, 2006..........................................    47
                              ----------                              

                        THURSDAY, MARCH 9, 2006
  FISCAL YEAR 2007 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
          FROM THE U.S. PACIFIC COMMAND AND U.S. FORCES KOREA
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Chairman, 
  Committee on Armed Services....................................     1
Skelton, Hon. Ike, a Representative from Missouri, Ranking 
  Member, Committee on Armed Services............................     3

                               WITNESSES

Bell, Gen. B.B., III, Commander, United Nations Command; 
  Commander, Republic of Korea-United States Combined Forces 
  Command; and Commander, United States Forces Korea, U.S. Army..     6
Fallon, Adm. William J., Commander, U.S. Pacific Command, U.S. 
  Navy...........................................................     5

                                APPENDIX

Prepared Statements:

    Bell, Gen. B.B., III.........................................    85
    Fallon, Adm. William J.......................................    60
    Hunter, Hon. Duncan..........................................    51
    Skelton, Hon. Ike............................................    53

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Andrews..................................................   131
    Ms. Bordallo.................................................   131
    Mrs. Drake...................................................   130
    Mr. Hunter...................................................   129
    Mr. Larsen...................................................   130
    Mr. Marshall.................................................   131
    Dr. Snyder...................................................   130
    Mr. Taylor...................................................   130
  FISCAL YEAR 2007 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
          FROM THE U.S. PACIFIC COMMAND AND U.S. FORCES KOREA

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Thursday, March 9, 2006.
    The committee met, pursuant to call, at 9:41 a.m., in room 
2118, Rayburn House Office Building, Hon. Duncan Hunter 
(chairman of the committee) presiding.

OPENING STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
       CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. The hearing will come to order.
    This is the committee's hearing to review the posture of 
our unified commands for fiscal year 2007, and our guests this 
morning are Admiral William J. Fallon, United States Navy 
commander, U.S. Pacific Command; General Burwell B. Bell, III, 
United States Air Force, commander, United States Forces Korea, 
commander, United Nations Command, commander, Republic of 
Korea, United States Combined Force Command.
    Admiral Fallon, welcome back.
    Let me also welcome General Bell in his first appearance 
before the committee as a commander of U.S. Forces Korea. We 
all look forward to your testimony and appreciate your 
appearance this morning.
    For the last few years, the public's attention has been 
focused on the Middle East. That is understandable, but it 
should not distract us from national security issues in the 
rest of the world.
    Developments in the Pacific are as crucial to our future 
security as the operations in Southwest Asia. The Global War on 
Terror is just that, and many of our ongoing efforts to combat 
extremists are taking place in Asia and the Pacific. Indonesia, 
the Philippines and the waters of the South China Sea continue 
to be home to terror groups that seek to do harm and further 
extremist ideologies.
    Natural disasters such as the December 2005 tsunami and the 
recent mudslides in the Philippines highlight the need for 
ready, responsive forces to come to the aid of our friends and 
allies in the region.
    Fortunately, our combatant commanders recognize the 
challenges in their respective areas of responsibility and are 
working to get ahead of threats and prepared for unexpected 
challenges.
    And, you know, I think the world was amazed at the time 
when we are engaged as heavily as we are in warfighting 
theaters, in Iraq and Afghanistan, and carrying on the war 
against terror around the world, that when the tsunami occurred 
and the mudslides occurred and the other things occur, you do 
not see people wearing the uniform of our European allies in 
great numbers. You see a few, a few, teams here and there.
    But you see Americans. You see the American uniforms at the 
time when we have got these multiple burdens around the world, 
being able to respond to humanitarian requirements. It is quite 
an extraordinary reflection on what I would call the 
flexibility and the creativity and the broad base of the armed 
forces.
    In addition to combating terrorism and providing 
humanitarian relief, our forces in the Pacific must also keep a 
watchful eye on developments in China. China's economic 
expansion and focus on military modernization continues, and 
recent comments made by the National People's Congress indicate 
that China plans to boost military spending this year by about 
15 percent. This spending trend and the lack of transparency in 
Chinese intent fuels increased tensions across the Taiwan 
Straits.
    Just this week, the Taiwanese president scrapped the 
symbolic unification council and drew angry warnings from 
Beijing. It is clear that situations such as this can escalate 
quickly and it threatens American lives and interests in the 
region.
    Of course, the threats to our security do not stop there. 
North Korea now admits publicly what the intelligence community 
has concluded openly for years, that its possesses nuclear 
weapons in violation of all of its Nonproliferation Treaty 
obligations. Continued economic strain and Kim Jong-Il's 
``military first'' policy keep South Korea and its neighbors at 
risk.
    General Bell, I look forward to your assessment of the 
situation on the peninsula and your thoughts about the 
challenges the world faces in coping with nuclear North Korea.
    No examination of the Pacific would be complete without 
touching on the recent discussions between the administration 
and India over nuclear technology assistant. Despite having a 
nuclear weapons program and not signing the Nuclear 
Nonproliferation Treaty (NPT), the President recently stated 
that India should receive the benefits and accept all the 
responsibility of the world's leading states with advanced 
nuclear technology.
    Some feel that U.S.-India cooperation could help to assure 
India reliable access to nuclear technology for its energy 
needs and increase India's involvement in nonproliferation 
efforts. However, many argue that by cooperating with a known 
nuclear weapons state, which has refused to sign the NPT, the 
United States undermines the foundations of ongoing 
international discussions with other nuclear states, such as 
North Korea and Iran.
    I think to the President's credit, we have to acknowledge 
that none of these problems and challenges come wrapped in neat 
packages. Nonetheless, this is an issue that is going to 
require, I think, a deep involvement by Congress and a fairly 
thorough scrutiny, understanding the President is undertaking 
this challenge in a very, very difficult set of circumstances 
as we watch nations emerge as weapons powers, nuclear weapons 
powers.
    The recently released Quadrennial Defense Review and the 
fiscal year 2007 budget request reflect a global posture 
realignment to cope these many challenges. I am concerned, 
however, that these adjustments add one more challenge to the 
equation, and it is unclear how this transition will be 
implemented. Military readiness must be maintained in this 
critical region, even during the Navy's realignment of forces, 
the Air Force's downsizing and the Army's transition to 
modularity.
    And, pardon me, General Bell, I think I recognized you as 
the United States Air Force General and right after you were 
telling me about the extraordinary adventures of the 173rd 
airborne.
    General Bell. Sir, we are all joint, and I am honored.
    The Chairman. I knew you would say that.
    Gentlemen, you are all on the front lines of dealing with 
those threats and reversing those trends before the result in 
full-fledged threats to the security of the United States. So 
we look forward to hearing how your commands are fairing in the 
face of these challenges. So, thanks for being with us and 
being with us at a time when we are attempting to readjust, 
realign and transform our services but facing probably a set of 
challenges that has never been more complex. Before we 
recognize our guests for their statements, let me go to the 
ranking Democrat on the committee, my partner, the gentleman 
from Missouri, Mr. Skelton, for any remarks he would like to 
make.
    [The prepared statement of Mr. Hunter can be found in the 
Appendix on page 51.]

STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM MISSOURI, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Skelton. Mr. Chairman, thank you, and I join you, Mr. 
Chairman, in welcoming Admiral Fallon, General Bell. It has 
certainly good to see you today. We are especially proud of 
young men and young women that you lead, and we thank them for 
their service.
    Today, the Pacific region is a critically important part of 
the world. We face an enormous number of serious security 
challenges, and yet I am concerned that our involvement in Iraq 
and in the Middle East has preoccupied us away from the Pacific 
region's rapidly changing strategic landscape. Our role in Iraq 
and the Middle East is very vital, as we all agree, but we must 
have a broader focus. It seems we should be doing much more in 
the Pacific region to ease tensions at flashpoints, cultivate 
strategic partnerships, build local capacity, prevent 
terrorism, proliferation of weapons of mass destruction, of 
course, violence and instability.
    We need a sophisticated, long-term strategy in the region 
that is well coordinated, and unfortunately, I do not see it 
from the administration. So hopefully you can tell us what we 
can do here in Congress to help in that arena. I continue to 
think, Mr. Chairman, that the Taiwan Strait is one of the most 
dangerous places in the world, given the potential for 
miscommunication or miscalculation.
    Just days ago, as you mentioned, Mr. Chairman, Taiwan's 
president announced the National Unification Council ceased to 
function, inviting a sharp response from Beijing. At the same 
time, China recently revealed the biggest increase in its 
defense budget in four years.
    Economic ties between China and Taiwan, between China and 
America continue to grow, and this could lead to cooperation in 
a number of other areas, but we cannot rely on economic 
relations alone. We must actively pursue other opportunities 
for cooperation that will lead China to increase its 
transparency, engagement in regional confidence-building 
measures and contributions to other security goals.
    Combating terror and the proliferation of mass destruction 
weapons should be central to the American-China strategic 
partnership, and addressing the avian flu and other health 
environment concerns should be a priority, given the serious 
security implications.
    I also believe we cannot afford to take our eye off the 
South China Sea. Many experts warn the potential for conflict 
there is greater than in the Taiwan Strait. I am also very 
concerned about the Six-Party talks with the North Koreans over 
the nuclear weapons program. These talks have been stalled now 
for several months, and yet North Korea may have at least eight 
nuclear bombs. What should America be doing to move along these 
talks, and what is the Pacific Command and the U.S. Forces 
Korea doing to prepare for all possible scenarios on the Korean 
peninsula.
    In addition, our relations with Japan and South Korea, two 
long-standing allies, cannot be more important than they are 
right now. They are involved in the North Korean talks, we 
share a number of key security goals. And so what are we doing 
to ensure those relations with those two allies to make sure 
they remain strong?
    India, the president, as you know, just came back from 
India and gave a few of us a recent briefing in the White 
House, and it continues to be an important U.S. partner in the 
region. Since 2001, American-India relations have flourished, 
including in the area of defense. Yet India has the nuclear 
weapons that it has tested in the past. It has never signed the 
Nuclear Nonproliferation Treaty. Despite that, the 
administration is pushing an agreement that would give India 
nuclear power.
    Many experts warn the deal could enhance India's ability to 
make nuclear weapons, ignite a regional arms race and strain 
American relations with other regional partners. It could also 
create undesirable precedence and make it more difficult to 
curb proliferation of weapons. I hope you will share your 
thoughts on the regional security risk you think the nuclear 
deal with India might create.
    Finally, Mr. Chairman, we face serious challenges in 
Southeast Asia, particularly the Philippines and Indonesia with 
the threat of terrorism, violence, instability. We were 
reminded of this last October following the Bali bombings, but 
we must have more efforts in Southeast Asia and make that a 
higher priority.
    The Pacific Command did a tremendous job responding to the 
2004 tsunami in Indonesia and recent landslides in the 
Philippines, and we compliment you for that. These types of 
efforts are important to bolstering strategic relationships and 
improving security cooperation. Again, I hope you will offer 
your thoughts on what we need to be done in the future. Admiral 
Fallon, General Bell, we are very, very pleased to have you 
with us today. Mr. Chairman, thank you.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 53.]
    The Chairman. I thank the gentleman.
    And just on a notice note, the gentleman from Missouri, Mr. 
Skelton, and I are going to host an informal breakfast for all 
the committee members with Secretary Rice and her staff who 
worked the India deal to come down and talk to us candidly and 
let us ask candid questions about that issue. So we will try to 
do that in the next week or two at a breakfast, and we will 
make sure everybody gets a notice on that.
    Well, thank you very much, gentlemen, for being with us.
    And, Admiral Fallon, the floor is yours, sir.

 STATEMENT OF ADM. WILLIAM J. FALLON, COMMANDER, U.S. PACIFIC 
                       COMMAND, U.S. NAVY

    Admiral Fallon. Thank you, Mr. Chairman, Mr. Skelton, 
distinguished members of the committee. It is a great honor for 
me to be here this morning representing the men and women of 
Pacific Command to testify regarding the posture of U.S. forces 
in the Pacific and the security situation throughout the Asia-
Pacific area.
    I would characterize the Pacific region as one of 
exceptional dynamic activity, very vibrant economic growth and 
overall an optimistic outlook is shared by the majority of 
people in this region. Nonetheless, there are some long-
standing frictions and challenges that remain and some newly 
emerging concerns that I would be happy to discuss with you.
    First thing I would tell you is that in the year that I 
have been on the job I now recognize the vast size of this 
area, immense indeed. More than 50 percent of the surface of 
the Earth and 60 percent of the world's population live in the 
Asia-Pacific area. And I have traveled extensively to try and 
see firsthand just what is going on and to personally better 
understand the security situation out there.
    It seems to me that there are several priority tasks. The 
first one being to maintain long-standing alliances with some 
of our critical allies in the region and partners in many 
endeavors throughout the region and the world and to help to 
try to build capacity in particularly the developing countries 
of this region so that they can better deal with the security 
situations in their own countries. Of course, we are also 
trying to, at the same time, transform our U.S. force structure 
and work with our allies as they, in fact, undertake 
transformation of their militaries as well.
    There are certainly some long-range concerns--the situation 
on the Korean peninsula, the emergence of China, the continuing 
friction in the Taiwan Strait--but balancing that against some 
very optimistic developments--the new relationship with India 
and I particularly cite the changes in Indonesia as areas of 
particular hope and expectation.
    We are currently supporting the efforts in the Central 
Command area and Iraq and Afghanistan with many thousands of 
troops, forces from all the services that are based in the 
Pacific region that are currently serving with distinction in 
the war zones.
    I would tell you that the number one priority for our 
region as well as CENTCOM is the Global War on Terror. I would 
also tell you that the focused areas that I have our people 
working are continuing to address the readiness of our joint 
and combined warfighting capabilities to ensure that our 
operations plans, contingency plans are actually credible, to 
look into these things and make sure that if we are on the hook 
to do things, that we can in fact feel confident that we can 
execute these responsibilities.
    We are also working very hard throughout the region to 
advance our regional security cooperation with partners, large 
and small, because I think that at the end of the day it is 
really essential that we help people throughout the region to 
be secure in their daily lives. Because it is pretty obvious to 
me that without fundamental security and confidence in their 
ability to exist day to day we are unlikely to see the growth 
and development, either individually or collectively, in these 
nations. And so we have an awful lot of effort going on in 
countries throughout the region.
    Finally, and certainly not least important, is that we are 
working every day to try to posture our forces as we look to 
the future so that they will be able to respond quickly and as 
required to meet any emerging security challenges.
    I think I will knock it off here, and just with a sincere 
thank you for your support to our men and women. I know that 
all the soldiers, sailors, airmen and Marines, civilians from 
the Department of Defense and our good friends in the other 
agencies that we work with hand-in-glove every day, thank you 
for your staunch support of their efforts day in and day out, 
and I want to thank you again for the opportunity to be here 
testifying in front of you today.
    I would be pleased to respond to whatever questions you may 
have.
    And, Mr. Chairman, if I could ask that my written testimony 
be entered into documentation here.
    [The prepared statement of Admiral Fallon can be found in 
the Appendix on page 60.]
    The Chairman. Without objection, all written statements 
will be taken into the record.
    Thank you, Admiral Fallon.
    Admiral Fallon. Thank you very much, sir.
    The Chairman. Well, thank you, Admiral Fallon.
    General Bell, you wear a lot of hats. Good morning.

  STATEMENT OF GEN. B.B. BELL, III, COMMANDER, UNITED NATIONS 
 COMMAND; COMMANDER, REPUBLIC OF KOREA-UNITED STATES COMBINED 
FORCES COMMAND; AND COMMANDER, UNITED STATES FORCES KOREA, U.S. 
                              ARMY

    General Bell. Good morning, Mr. Chairman. I need to work on 
that airborne badge, though, and I promise you I am going to 
relook at my deficiencies and see if I can make an improvement. 
That is the one hat I am not wearing for you today, sir.
    The Chairman. You only need five, count them, five.
    General Bell. Yes, sir. Yes, sir.
    Mr. Chairman, Representative Skelton, distinguished members 
of the committee, it is truly my pleasure to before you today 
representing the service members, Department of Defense 
civilians who serve in the Republic of Korea (ROK). On behalf 
of these outstanding men and women, I really do thank you for 
your continuing support.
    And for the record, sir, I, too, would like to submit my 
posture statement. I appreciate that.
    The Chairman. Without objection, it will be taken in.
    General Bell. Since I assumed command in Korea last month, 
I have assessed the Republic of Korea military capability and 
that of North Korea, and it is my belief that our alliance with 
the Republic of Korea remains strong as a key strategic 
partnership for the United States as well as for the Republic 
of Korea (ROK).
    The ROK-U.S. alliance provides a true pillar of stability 
in Northeast Asia while it continues to deter North Korea. The 
ROK-U.S. Mutual Defense Treaty relationship has progressed from 
what was a single-purpose military alliance into a much broader 
alliance based on shared democratic values and common 
interests. And although the United States, indeed, has many 
ongoing global commitments, I am convinced that we must 
continue to stand with our South Korean partner to deter 
aggression on the Korean peninsula. And in doing this, we are 
also going to continue to substantially contribute to regional 
stability.
    The success and prosperity of the Republic of Korea 
reflects the result of a half century of American commitment. 
Since the Korean war, the alliance has maintained a security 
environment favorable to the development of what is a 
remarkable free-market economy, as well as a free and 
democratic society. Today, South Korea is a world economic 
leader. They are our close friend and our partner.
    One-quarter of the world's economic output is generated in 
Northeast Asia, and the Republic of Korea ranks as a seventh 
largest trading partner. United States trade alone in that 
region exceeds $500 billion a year.
    Now, as you know, our nation is currently entering into 
negotiations for a free trade agreement with the Republic of 
Korea, and I think all of this is good for us here at home as 
we continue to trade in a global economy.
    Meanwhile, the Republic of Korea military is on a solid 
path to modernization and transformation; there is no doubt 
about that. And it continues to assume very tough missions from 
the United States, which heretofore we could only accomplish, 
in my view. It has my assessment that today, and with our help, 
the Republic of Korea is fully capable of defending itself 
against North Korean aggression.
    In contrast, North Korea is a significant threat that must 
still be deterred. North Korea's Kim regime continues to build 
and sustain a military arsenal far beyond its requirements for 
self-defense at the dire expense of its own people's well-
being.
    The North's military is located forward along the 
demilitarized zone, and it is positioned to strike well within 
range of Seoul where about half of South Korea's 48 million 
population resides. North Korea's missile inventory and its 
self-declared possession of nuclear weapons threaten the 
Northeast Asia region and beyond. North Korea proliferates a 
range of weapons and technology, and it appears willing to sell 
to anyone.
    As North Korea continues to proliferate and pursue WMD 
capability, they may eventually threaten the continental United 
States and indeed the entire world.
    As you know, the United States and our allies have 
attempted significant engagement efforts with the North, and we 
will continue to do this in the future. But North Korea delays 
discussion, breaks commitments and disregards international 
standards of behavior. The Kim regime prefers to pursue its own 
ends regardless of the good-faith efforts of the United States 
and other regional actors.
    With the reality of North Korea ever present, there is a 
desire by the Republic of Korea to see our half-century 
alliance mature and adapt to its contemporary and foreseeable 
security requirements. I think this approach is reasonable and 
healthy. As we support the ROK's desire for a greater role in 
its own defense, we also compliment our efforts to meet out our 
transformation objectives.
    In the past few years, we have begun of reposition our 
forces south of Seoul, redeploy selected units to our home 
shores and return valuable land to the Korean people in the 
south. This process will continue over the next few years.
    Recently, the ROK government has asked us to revise the 
command structure which characterizes our current military 
relationship should war break out on the peninsula. Today, the 
alliance calls for a combined or equally shared operational 
command arrangement between our two nations, under my 
leadership, as the Commander of Combined Forces Command.
    In the future, South Korea would like to move to a command 
arrangement where they would independently direct combat 
operations of their forces. United States forces would 
therefore transition from our current equally shared command 
relationship to more of a supporting role.
    The ROK military is modern and capable, and my assessment 
is that this arrangement will make sense for both of our 
nations, while continuing to effectively deter and ensure 
victory should deterrence fail.
    In the future, to support the Republic of Korea's desire to 
exercise independent combat command, I envision U.S. military 
support to the alliance to be air and naval-centric. And as I 
see it, our past commitment to the Republic of Korea and the 
region has significantly benefited our nation as well as the 
Republic of Korea. Throughout our history, the United States 
has prided itself on the promotion of democracy, free-market 
economies as a celebration of individual freedoms and rights 
and the propagation of peace and stability.
    The ROK-U.S. alliance demonstrates our continued pursuit of 
those ideals and we have been successful.
    Sir, that is my current assessment. I thank you for the 
opportunity to appear before this committee, and I do look 
forward to answering your questions.
    Thank you very much.
    [The prepared statement of General Bell can be found in the 
Appendix on page 85.]
    The Chairman. General Bell, thank you.
    And, Admiral Fallon, thank you for your opening statements. 
And I am going to pass on my questions and I will have some 
questions at the end to try to make sure all of our members get 
a chance to have a discussion with you.
    The gentleman from Missouri, Mr. Skelton.
    Mr. Skelton. Thank you, Mr. Chairman. I will ask only one 
question, as we speak, and I will have a number of them at the 
end of the hearing. And I suppose it could be addressed to both 
of you, but how much should we be concerned with the recently 
reported increase in China's defense spending and what does 
that mean for us? Admiral Fallon, and then General Bell.
    Admiral Fallon. Mr. Skelton, it is a concern, because it is 
following a pattern of increasing amounts of money, and it is 
about 15 percent that has been announced. It exceeds their 
gross domestic product (GDP) growth, which is impressive, 
nonetheless, for the past decade. It almost doubles the GDP 
growth.
    So the challenge that I see is not so much in the aggregate 
amount of that because they are still a fraction of our defense 
expenditures, a small fraction. But the challenge that I have 
is the lack of transparency and dialogue with the Chinese and 
what their intentions are.
    Very clear to me that a lot of the acquisition of hardware 
of late appears to be directed to affect military activity, 
vis-a-vis Taiwan. And also, a lot of this appears to be aimed 
at countering our ability to respond to that challenge.
    So in the absence of much dialogue, we are left to ponder 
just what is going on.
    Again, the numbers and the amount of this equipment is 
relatively small compared to ours, but it is a pretty steady 
growth, and I would sure like to have a better understanding of 
what their intentions are.
    General Bell. Sir, I could add that I have looked in some 
detail at the relationship, militarily, between the PRC and the 
North Koreans, and I can report to you that the level and 
engagement from a military perspective is quite low and, as 
such, a positive situation, in my view. They rarely exercise 
together, there is no known, to my knowledge at this point, 
major weapons sales, contracts, et cetera, the exchange of 
military personnel, which you might see between allies, is 
very, very low.
    And so although they do share in a friendship treaty, the 
amount of military support that the PRC provides to the North 
is minimal, and I think at this point represent a good-faith 
effort to keep a lid on North Korean expansionism, 
proliferation, et cetera. And I would encourage us to continue 
to work with the Chinese through all the methodologies to make 
certain that it stays that way.
    Mr. Hefley [presiding]. Well, excuse me, I guess it is my 
turn now, since Mr. Hunter left.
    Admiral Fallon, you mentioned readiness. You are going 
around the Pacific trying to see for yourself about the 
readiness and so forth. How are we from a readiness standpoint? 
Of course, that is a committee that I Chair and have the 
deepest interest in.
    Such things as our preposition equipment, which we have 
taken a lot of it, I think, to fight the war and the O&M 
budget, which we are always running behind. Do you have the 
resources you need to properly train, maneuver, prepare for 
whatever contingency is out there?
    Admiral Fallon. Yes, sir. The short answer, Mr. Hefley, is 
that I feel we do have the resources to do what needs to be 
done to keep our forces ready. We have been concerned about the 
drawdown of prepositioned (PREPO) stocks, and we have been 
extensively discussing this with the services, particularly the 
Army and the Marine Corps. And we are confident that the plan 
that is in place to replenish those stocks is sufficient for 
our needs.
    I will tell you that my detailed look at this has me 
convinced that the smart thing to do for the Nation is not to 
demand an immediate fill up of all these things with the 
material that has been removed. Because I know that a 
substantial amount of this material, weapons and other stocks, 
are going to be replaced with more modern equipment.
    And so I have not put a huge demand signal on the services 
to immediately refill the stocks, because I know that some of 
these things are in the initial stages of procure, but I am 
satisfied that we have got enough should we need to respond 
right now. And the forces have been adequately resourced.
    We do have a significant number of our forces that are 
deployed, and have been deployed, and are rotating through the 
active combat areas in Iraq and Afghanistan. But the result of 
this is that while we do have forces out of area they are 
contributing to the war effort in the near term and the 
training, on-the-job training they get, their real readiness 
has certainly increased based on their experience in the war.
    So the units we get back in the theater and probably more 
responsive to our needs should they be called upon. So the 
bottom line is I think we are in good shape on readiness.
    Mr. Hefley. Okay. Well, you know, you guys have the 
tendency, and it is a good tendency, to make due and go do the 
job with whatever they give you. But, please, let us know where 
any deficits are so that we can work with you to make sure that 
we are ready.
    General Bell, sometimes we get the impression that there is 
a question about how badly the South Koreans want us there, and 
I know that street demonstrations do not tell the full story. 
But, now, you have been there a short time but long enough to 
get a feel for it. What is your evaluation of this, what is 
your sense of this?
    General Bell. Thanks, Mr. Hefley. I will give you my 
assessment. I am very optimistic, by the way.
    First, just to give you a sense of where the general polls 
are, and I guess polls can tell you whatever they want them to 
tell you, and you all perhaps know more about polls than I do.
    But I am going to tell you about a poll that was recently 
conducted by a credible source in the Republic of Korea, which 
demonstrated that 77 percent of the population of the Republic 
of Korea favors U.S. continued presence, favors a strong 
alliance with the United States. And I think that is indicative 
of what I have seen in the month that I have been there.
    So at the baseline, and there are other polls out there 
that show the same thing--this is not an anomaly at all. I will 
tell you that the Republic of Korea is a thriving democracy. It 
has all the apparatus of democracy that you would expect, not 
unlike what we have here in the United States. They have got a 
range of political parties, they have got different 
perspectives in those parties, and they debate the issues in 
public. When it serves the needs of one of the parties to 
attempt to gain favor with the population, if they can raise 
issues about the alliance and if they believe that that will 
produce some favoritism, they have perhaps in the past raised 
issues about the alliance and U.S. presence.
    But in the end, the government that has been elected there 
and the officials that I meet with, including the highest 
levels of their government, have the same principles that we 
have seen over the years: One, deter North Korea and ensure 
that there is no conflict on the peninsula. Peace is in 
everybody's interest, and you just cannot buy peace; you have 
to have peace through strength, and the Republic of Korea 
understands that clearly.
    They invest significantly in their military force for that 
purpose. Their GDP commitment to their military is higher than 
almost all of our European allies, and so there is a real 
monetary commitment to defense. Their purpose is the same as 
ours, to denuclearize North Korea, and they state that publicly 
and they help us toward that end.
    So my assessment would be while nothing is an easy day 
today, necessarily, I do celebrate, in many respects, in fact 
in all respects, the operation of a democracy, free people, 
freedom of press, freedom of speech, all working in that area 
of the world wherein democracies over the years have not always 
flourished.
    And so I am optimistic. We have some issues; we are working 
through them. They get debated in the public arena. But they 
are the kinds of the issues we would expect when dealing with a 
good friend and a good partner.
    Mr. Hefley. Thank you for that, but one last question. You 
are going to move a lot of our footprint out of Seoul, I 
understand. In recent years, we have struggled to put money 
into the command there so that it is better living conditions 
and so forth. And it has been a struggle. I mean, there are not 
any South Koreans that vote in any of these districts, and it 
is hard to get the military construction (MILCON) necessary.
    But as you move, are the improvements that we have put in 
in the last few years, are they going to the South Korean 
military or were many of those put in to where you are going to 
go?
    General Bell. Sir, that is a great question. Let me attack 
it from a couple of angles. Since 2003, we have very 
judiciously, in my view--I have looked at it very carefully and 
I have walked the ground--attempted to ensure that any military 
construction that comes out of U.S. funds is located on 
enduring installations that we intend to occupy and be in into 
the foreseeable future.
    I can tell you I just last week walked the halls of a new 
family housing unit at Camp Humphreys, exactly center of mass 
of one of our enduring installations in a project that was 
approved several years ago.
    So, first and foremost, I want to assure you that for at 
least the last three years and now into a fourth year, we are 
very careful before we ask for military construction to ensure 
they will be at our enduring installations.
    Now, second, our training areas that we will retain we are 
still asking for MILCON in some cases to upgrade our training 
areas.
    Sir, I will not tell you that in the past we have not built 
things at, say, Camp Casey, a place that we do intend to leave 
and go south of Seoul. I will tell you, however, that the South 
Korean government is helping us measurably in this effort. They 
are paying for the vast majority of our move south. Over $4 
billion of investment by the South in infrastructure and move 
costs to move the U.S. military south is being borne by them.
    They have already spent $1.8 billion of that $4 billion 
commitment, and I think, sir, that is a magnificent 
demonstration of burden-sharing. Their annual burden-sharing 
outside the move but just burden-sharing is in excess of $500 
million a year cash on a barrelhead to United States operations 
in that area of the world.
    So our ally is putting their money on the table to assist 
us, and I want to assure that as I ask you for some money in 
the future, that I will only put it where I know we are going 
to be enduring, where it makes sense for the American taxpayer 
and where it is justifiable.
    Mr. Hefley. Thank you very much.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Admiral Fallon and General Bell, welcome to our hearing 
today.
    I know, Admiral, that they touched on the status of the 
preposition stocks. I know that has been a problem, and we know 
that we are beginning to see some hotspots in Pakistan and 
Indonesia. Are you satisfied with the preposition stock that we 
have now?
    Admiral Fallon. Yes, sir. We found a problem a little over 
a year ago in the maintenance of some of the PREPO stocks, 
particularly the stocks that were in Korea and earmarked for 
Korean contingencies. And it had to do with relatively small 
amounts of money and attention to detail. I feel confident that 
that has been addressed.
    I have gotten a detailed rundown of each of the issues in 
that regard, and from that perspective, I have got a new chief 
of logistics, an Army one-star, a great big guy, a very sharp 
guy, and he has been bird-dogging this stuff, and we feel very 
comfortable.
    I will ask General Bell for his comments too.
    Mr. Ortiz. General.
    General Bell. Sir, I think this is a story I ought to share 
with you because it is a good news story and we appreciate it.
    Some of our PREPO equipment in the Republic of South Korea, 
which is there for an immediate warfight, is centered around 
what we call a heavy brigade combat team, armor and mechanized 
infantry combat team, or PREPO. There are other pieces of 
PREPO, precision munitions, bombs and these kind of things, but 
the core element is this Heavy Brigade Combat Team (HBCT), we 
call it, heavy brigade combat team.
    On inspection a little over a year ago, some of that 
equipment was found to be wanting. I can give you lots of 
reasons. Part of it was that we were deploying an organization 
to Iraq out of Korea, from the 2nd Infantry Division, a 
brigade. Some of the equipment that was in PREPO was used to 
get this brigade in exactly the right configuration, so there 
were some issues. But let there be no doubt that there is a 
reasonable perspective that we did not pay the degree of 
attention to that equipment over the years that we should have.
    What we did last year, just a bit over a year ago, was 
triple the amount of maintenance money that we are using to 
keep that brigade combat team ready, from about $14 million to 
about $42 million a year in direct funding to do the 
maintenance on this equipment as it sits in these sheds, et 
cetera, et cetera.
    We hired 160 additional civilian employees, mechanics, to 
work on the equipment to make sure it is in a high state of 
readiness. We have instituted a pretty aggressive effort to not 
only read our readiness reports but also to exercise the 
equipment.
    The heavy brigade combat team right now readiness rates 
that I am receiving from our Army Materiel Command are in 
excess of 90 percent; in fact, higher than that. I will not 
give you an exact number here, but they are very impressive 
numbers. Our exercises that we are doing will test some of 
these in a more tough field environment.
    But the facts are that we have put a lot of money into 
ensuring that this equipment is maintained, and we have a 
checks and balances program to make sure that we are not 
kidding ourselves. I am very comfortable right now that we have 
put the attention into this equipment that we should have and 
that in the last year we have made enormous progress.
    And I will keep this committee posted if there are issues 
with additional funding, but right now this tripling of funding 
that we have put into that set has made a big difference, by 
all measures.
    Thank you, sir.
    Mr. Ortiz. Another question that I would like to ask, I 
know that you do have the pre-stock, what you think is 
adequate. How about your sustainability? How long can you 
sustain in case something breaks up? We have got North Korea 
and we have got all those hotspots. For how long can you 
sustain yourself?
    General Bell. Let me go just a bit afield on you, and then 
I will come back and answer your question. If a war were to 
break out in Korea today, if our deterrent regimen with our 
ally were to fail and they were to attack, this war--and, 
obviously, I will not get into the specifics of a war plan--but 
this war would be first and foremost fought our Republic of 
Korea ally principally. Their army on the ground is in excess 
of 500,000 active duty, and they are on the line, and they are 
ready. They have got three field armies fielded. They have got 
a large air force with over 600 aircraft with very modern 
fighter aircraft--F-16s, F-15s, et cetera--ready to fight. They 
have got a good navy and an excellent marine corps.
    So on the ground, sir, they will accept the brunt of the 
fight initially. It is not going to be like 1950 when the 
military was not ready. This is a ready outfit. They have taken 
many missions from us, and they are very good.
    Meanwhile, the United States is prepared to respond, first 
and foremost, with an aggressive air campaign that, in my view, 
like one of our core competencies would be extremely effective 
in blunting any kind of invasion of the South. Likewise, our 
naval forces, et cetera, et cetera.
    So I am not telling you that we do not need a lot of 
supplies to sustain operations, but, sir, what I am telling you 
is that we envision a war in Korea--first, we do not want a war 
in Korea. We want to deter and we want North Korea to join the 
peaceful community of nations. That is our objectives. We want 
them to denuclearize.
    But should they miscalculate, I do not think you are going 
to see a war like 1950, sir. I think you will see it concluded 
on the alliance's terms fairly quickly.
    Having said that, we have sufficient stocks to sustain U.S. 
forces for the length of time that we need to. I believe the 
Republic of Korea needs to continue to invest in stocks to 
sustain their military. I would not tell you that in my 
assessment that they have finished procuring the kinds of 
materials that they need to sustain a war over a longer period 
of time.
    But, again, I have got a lot of confidence in our 
capability, and I look at it every day, sir.
    Mr. Ortiz. Thank you. I just have one short question, and I 
think that you are having problems with training ranges. They 
are small. How can we help you there, because we need for your 
troops to be adequately trained, and if you do not have enough 
land to train, is that causing a problem?
    General Bell. Sir, we have issues with training ranges. I 
do not want to get laborious here. I will talk all day about 
great military and pretty proud of it.
    I like our ground training capability. It is good and 
getting better. I would love a place the size of my home state 
of Tennessee to train in, but we have lots of ways to train 
where we do not need a place the size of the state of 
Tennessee. We have got good ground combat ranges. We are 
investing in them. This year, I have got in the budget request 
about $4 million requesting upgrades of three ground ranges 
that are for our exclusive use that will continue to help us in 
our training environment.
    Our issue in the Republic of Korea today is air training, 
the training of our air ground capability, our fighter aircraft 
to delivery bombs on target. We do not have the ranges that I 
believe are required to ensure our competency day to day.
    Now, we are negotiating, working with and trying to resolve 
this with our Republic of Korea ally. We had the ranges that we 
needed until several months back. We are transitioning to a new 
range complex, and we were under the belief that that 
transition would go very quickly and that we would begin to use 
a new range complex with scoring targets, et cetera, et cetera, 
so the pilots could grade their performance, et cetera.
    We have not gained access to that range yet. It is an 
issue, and I am working on it. In the interim, we have other 
training opportunities off the peninsula for our aircraft that 
we are using to ensure that our readiness is maintained at the 
highest levels.
    But, sir, we do need access to these air ground training 
areas, and I anticipate getting that access in the near term.
    Thank you.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Mr. Hefley. Mr. Saxton.
    Mr. Saxton. Thank you very much.
    General Bell, I would just like to follow up on Mr. Ortiz's 
last question and just allow you to expand on your needs. As we 
spoke before the hearing, you indicated to me that there were 
some things that were issues that you wanted to explain to us, 
and if you would just take this opportunity to go ahead and do 
that.
    General Bell. Sir, I think the issues that I have deal more 
with North Korea. If I could get off into that area just a 
bit----
    Mr. Saxton. Yes, sir.
    General Bell [continuing]. I would appreciate it.
    You know, we have worked, as I said in my opening 
statement, pretty hard, the international community has, since 
the North became one of the great proliferators of technology, 
of missiles and self-declared nukes, at least the development 
of nuclear weapons. And we have tried in good faith to find 
resolution of that. The North Koreans have, on some occasions, 
come forth and appeared to have negotiated and work with the 
six parties--the other five parties in good faith, only then to 
retrench and put another demand on the table. And so it is a 
matter of concern.
    And in this world in which we live today, proliferation of 
technologies to countries around the world has got to be a 
great concern for all of us, and North Korea continues the 
development program. Only in the last couple of days they have 
again tested short-range ballistic missiles that are in fact a 
quantum leap forward from the kinds of missiles that they 
produced in the past, solid fuel missiles that have great 
reliability, are easy to move around a battlefield, have higher 
accuracy potential, et cetera, et cetera. They are routinely 
testing these.
    So one could expect that if they chose to proliferate 
these, that they have got a system that is working pretty well 
and that they would have a buyer out there.
    So this kind of behavior is unnecessary in the world today. 
It is time for North Korea to enter the peaceful group of 
nations that seeks to empower their own people to be free and 
to raise their kids in a safe and secure environment. And I 
think that the United States, with our leadership and with the 
other members of the six parties and with the rest of the 
international community, has to remain strong in this regard.
    It has worked effectively since the end of the Korean War, 
and we need to continue to be very cautious as we deal with the 
North. I do not think that they deal in good faith in these 
meetings. There is no major indication of good faith here. They 
still have the capability to produce plutonium from enriched 
uranium that has been run through a reactor. They have a 
reactor. The began construction on a large reactor some years 
ago, which is now not being worked on but there it is.
    So my biggest concern remains a continued effective 
deterrence with respect to North Korea. We need to continue to 
engage North Korea. I think the Six-Party talks is a good forum 
to do that. We need to gain international consensus on this 
issue. We need to confront those who are buyers and make 
certain that we make it hard for them to buy. We need financial 
penalties, we need economic penalties, et cetera, et cetera.
    So my biggest issue is that after all these years it is 
time for North Korea to become a peaceful nation and to join 
the community of nations instead of continuing to be, if you 
will, a rogue nation that proliferates in a world that does not 
need that kind of proliferation at this time, sir. I apologize 
for ranting and raving.
    Mr. Saxton. No, sir. We need to hear that. Thank you.
    Mr. Hefley. Mr. Taylor.
    Mr. Taylor. Thank you, gentlemen.
    I am going to throw a scenario at you. I guess everyone has 
got a different view of what they think the assassin's mace is. 
If Chinese make their move against Taiwan, simultaneously, the 
Koreans decide to invade the South, and just for good measure, 
since we have realized how vulnerable the city of New Orleans 
is, they send someone over with a gasoline-powered auger, a few 
sticks of dynamite and they blow the levee again. So we 
simultaneously have a situation in the Far East, 500,000 people 
sitting on rooftops.
    And what really struck me last fall was, apparently, how we 
are running a just-in-time military on things like generators, 
tents, meals ready to eat (MREs). And just-in-time works find 
in peacetime in ideal situations, but you start changing the 
equation with an unanticipated disaster and just-in-time does 
not work.
    So under that scenario, General--and let's just say the 
Chinese have now fielded a few pretty good diesel subs that 
have done a pretty good job of disrupting the sea lanes. So on 
just basic things like MREs, water, generators, tents, how are 
your troops able to take care of themselves for the first 
month?
    General Bell. Sir, we have----
    Mr. Taylor. Given this scenario: You have got 500,000 
screaming civilians in the city of New Orleans, you have got a 
situation off of China, you have got, what 36,000 combat troops 
that you have got to take care of.
    General Bell. Sir, we did have 36,000, you are correct. We 
are at about 30,000 right now because we are redeploying some 
of these troops. We are going to go to about 25,000. And I do 
not want to restate what I stated because I do not want to 
waste your time, but I do want you to know that we have the 
preposition materiel supplies that we need to sustain our 
force, in my view, adequately on the ground.
    Mr. Taylor. May I interrupt?
    General Bell. Yes, sir.
    Mr. Taylor. And, please, with all due respect, whether you 
are for the war in Iraq or against the war in Iraq, I really do 
think it is fair to say that a hidden cost of the war in Iraq 
has been materiel. And I am not so sure those things are being 
replaced for whatever reason.
    So, please continue. And I want you to convince me that I 
am wrong on that one.
    General Bell. Sir, I would not endeavor to convince you 
that you are wrong, because we are fighting a Global War on 
Terror. It is expensive. We are consuming a lot of products, to 
say the least, and this is not an easy endeavor for the United 
States or the world community.
    But what I want to share with you is that if the North 
miscalculated, I am absolutely convinced in a very strong way 
that we have what we need on the peninsula to defeat an attack 
by North Korea resoundly and quickly.
    And a lot of this extends from the good work done by all of 
our predecessors over the last 50-plus years in assisting the 
Republic of Korea in building a military that is arguably one 
of the best in the world. What we wanted to do in this alliance 
is, one, produce a democracy, get the Nation back up on its 
feet and allow it to defend itself. It is now, you name it, the 
10th, the 14th largest economic power in the world. It has got 
a magnificent modern military, and we are transitioning quickly 
to ensure that they take on the totality of the burden of 
deterring and defending.
    So my sense is that we are postured well on that peninsula 
to deal with any contingency.
    Mr. Taylor. General, if I may.
    General Bell. Yes, sir.
    Mr. Taylor. And, again, I heard you say that. I am not 
doubting your word. I guess just to allay my fears, how long 
could your troops be self-sufficient? If for whatever reason 
the sea lanes were blocked and other contingencies around the 
world were gobbling up supplies at an unanticipated rate, how 
long could your troops be self-sufficient? Nothing shows up to 
help.
    General Bell. Sir, I would--and I know you think I am 
equivocating. I promise you I am not. The number of days of 
supply that I feel confident in that we can be self-sufficient, 
I would ask to inform you of that in a closed session or 
privately.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Taylor. I would welcome that.
    Okay. So let's just an analogy that maybe you could answer 
in public session. Is that number the same as, more than or 
less than four years ago today?
    General Bell. I would say that it is the same as four years 
ago today because our force is smaller and the Republic of 
Korea is much more capable today than it was four years ago 
when I was exercising with them as an army corps. They have 
taken over, for example, the counterfire missions, arguably the 
hardest mission for a land force to do in modern warfare is to 
understand what guns are shooting at you and return precision 
fire to destroy those guns. They have now taken that mission 
from us. And I went through their counterfire facilities just 
the other day. It is world class. They know what they are 
doing; they are very good.
    The United States forces in Korea I do not believe are at 
risk in terms of lack of supplies, lack of materiel. Certainly, 
they are not at risk in terms of the training or readiness of 
the young men and women who make up our force over there. And I 
confident that the plans that we have in place could be 
executed and that we would be successful.
    Having said that, I would not tell you for a second, sir, 
that life is perfect out there with wars going on in 
Afghanistan and Iraq. And things like this horrible tragedy in 
Louisiana and Mississippi and along the Gulf coast and for that 
matter in Florida where these hurricanes crisscrossed before 
they made landfall over in other parts of the Gulf coast.
    And we do need to reinvest as a nation in many of the 
supplies and commodities that make certain that our military 
can sustain itself. But irrespective of that, I have a lot of 
confidence about our ability on the ground, in the Republic of 
Korea.
    Mr. Taylor. Okay. For the record, I would like that number 
in whatever manner you choose to present it.
    General Bell. Sir, I will submit that to you.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Taylor. Thank you, Mr. Chairman.
    Admiral Fallon. Mr. Taylor, could I offer a couple of 
comments?
    Mr. Taylor. If the chairman permits it.
    Mr. Hefley. Surely. Go ahead.
    Admiral Fallon. Thank you, sir.
    When I went into this job about a year ago, one of the 
first things that I decided to go take a real hard look at was 
exactly this issue of what kind of shape are we in to be able 
to execute our contingency plans, because my intuitive feeling 
for probably the same reasons that motivated your comments were 
that we had a pretty significant draw on equipment worldwide to 
support the effort in Iraq and Afghanistan.
    And what I discovered was in fact this was true, that 
particularly for our rolling stock and related equipment there 
had been a significant pull. And the thing we discussed 
earlier, some of this was due to lack of availability. The 
equipment was actually there but not in the right maintenance 
condition. It needed to get fixed, and that has been done.
    The other significant factor is regarding rolling stock. A 
lot of this equipment is planned to be replaced with upgraded 
equipment. This has to be funded. This is in the Army budget, 
the Marine Corps budget. I have seen the documents for this 
year, next year and the year after. It is going to be the 
ability to actually fill out those stocks is going to be 
contingent upon continued funding to do that.
    I would like to address specifically one other area and 
that is ammunition. My command, the Pacific Command, put a 
significant demand signal on the ammunition folks to provide 
precision strike munitions in the last couple of years with the 
advent of Joint Direct Attack Munition (JDAM) and (JSAT) 
weapons, which came into the inventory a few years ago.
    And so our requirements, if you would, change to larger 
numbers of these equipment. We do not have all of those weapons 
in hand. We have other weapons that could be used for the 
purposes that would be required. But the build programs, they 
are already funded, I believe will provide adequate supplies of 
those precision weapons over the next couple of years. The 
stocks are building quite rapidly, and I feel pretty 
comfortable there.
    It is my responsibility as Pacific Commander to provide the 
support to sustain General Bell should he be in a warfight. I 
think the points that he mentioned about the preponderance of 
the ground effort being in the hands of the South Koreans, the 
ROK, is very significant.
    The other point I would make is that the Pacific area is 
primarily an air and maritime theater, and, as such, our air 
and naval forces have not been nearly as heavily engaged 
certainly in Iraq and Afghanistan as the Army and Marine Corps. 
We would expect to bring those capabilities to bear; that is 
the plan should there be a contingency in Korea.
    I guess the other point would be that as we look to the 
future, as the potential for plans might be changed, we will 
still make sure that we can adequately support and sustain our 
forces.
    You made the comment about the common things, things that 
people use everyday--MREs, water and generators. I am going to 
tell you that those specific items were exactly what was 
requested several weeks ago by our JTF Commander in the 
Philippines to try to respond to the humanitarian disaster.
    And I will tell you that we had those supplies on hand. In 
fact, as I reviewed the bidding here last week, I went through 
the Philippines to see how and to congratulate our folks for a 
great job. In fact, they were back flowing exactly those 
commodities. So the fact that we were able to respond on very, 
very short notice, within 36 hours, to get that exact material 
on the ground from existing stocks in the western Pacific, I 
think, is a pretty good indicator that we are in reasonable 
shape.
    Thank you, sir.
    Mr. Taylor. Thank you.
    Mr. Hefley. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Admiral, Chairman Hunter, in his opening remarks, commented 
about China has announced intentions to increase military 
spending, and we know that that is just kind of the tip of the 
iceberg, that what they are actually spending is several times 
greater than that.
    What do you believe is the ultimate goal of their apparent 
attempt to build up a blue water navy? They do not need that 
for Taiwan. What is your assessment of their attempts to 
increase and build up their navy.
    Admiral Fallon. Congressman Forbes, I do not know what 
their intentions are. That is the big question that we wish our 
intelligence system would provide for us, and that is clearly 
the most difficult thing to determine. It seems to me that the 
buildup of capabilities by the Chinese is, first and foremost, 
aimed at trying to facilitate their capability to move should 
they feel the need to do that. Against Taiwan.
    And that presents Pacific Command particularly with a 
significant challenge, because at the same time that we want to 
encourage China to engage in a meaningful dialogue and to act 
in a manner that other nations in the Pacific region act on a 
daily basis. We also are very mindful of the fact that we are 
committed to defend Taiwan should they be attacked.
    And so what I do with this is I look at the specific 
hardware acquisitions that are visible to us, that the PRC is 
investing in things that would be helpful to have them achieve 
this objective should they feel inclined of do it.
    Hand in glove with that is the knowledge, I am sure, that 
we are committed to help Taiwan. And so the ability for them to 
counter our capabilities to attempt to neutralize our advantage 
in these areas in which we would respond also seems to be an 
objective of these purchases.
    My sense is that this is generally aimed at the immediately 
vicinity of China and trying to build up their numbers and 
ability to deal with the Taiwan challenge and with our 
potential response to that.
    Mr. Forbes. And I know that you mentioned that their 
capabilities were small compared to our capabilities still 
there, but have you made any assessment of the lethality that 
they would be able to bring to bear on the civilian population 
of the United States if, heaven forbid, we were to have a 
conflict of some sort with China?
    Admiral Fallon. Yes, sir. You are certainly aware that the 
Chinese possess nuclear weapons, and they have the means to 
deliver those weapons by long range. That said, I do not see 
any indications whatsoever that their intent is to use those 
against the United States. My sense is that the overwhelming 
indicators are that their acquisitions are intended to enable 
them to respond regionally to their perception of need in that 
area and not aimed at the U.S.
    Mr. Forbes. Last question I have is, as we did the recent 
Committee Defense Review (CDR), we heard all of our commanders 
say that both today and tomorrow there will be an increasing 
need to marshal the resources under the control of all of our 
agencies and not just traditional platforms and weapons 
systems. What do you see as the shortcomings that we currently 
have and being able to marshal all those resources? And do you 
have any suggestions for us to how we can do a better job in 
doing that in the future?
    Admiral Fallon. Yes, sir. It is certainly a key item and I 
believe essential to success. If I could focus on the 
development of the emerging nations in the Asia Pacific region.
    It is very clear that military can play a substantial role 
in providing the security backdrop to enable countries to deal 
with their challenges. But many of the skill sets that are 
necessary for these countries to be able to take care of the 
needs and their own within their own borders and to be able to 
provide for their own security rests with other agencies. And 
so we try to work very carefully.
    I will tell you that in the Asia-Pacific area, the 
relationship we have with our ambassadors and the embassy 
staffs, and Department of State is superb. Hardly a day goes by 
that I am not in a dialogue with one or more of our ambassadors 
on some number of issues. We cooperate very closely.
    And our ambassadors, of course, are the folks who 
coordinate the activities of other agencies of our government 
into activities within those countries. So of course there are 
going to be challenges because people are used to doing things 
within their own particular organizations. We have challenge 
among ourselves. But I will tell you that we actively engage in 
outreach. This past fall, the Department of State sponsored a 
chief submission conference in Hawaii in which we participated 
very actively, discussed a wide range of issues exactly related 
to these kinds of challenges.
    I will tell you that in our tsunami response a year ago, a 
lot of the levers of capability that were brought to bear were 
not military. We facilitated the presence and sustainability of 
many of these resources, but many of the things that were 
brought to bear were from other agencies, and I think this went 
very well. We did a hot wash up and then a detailed lessons 
learned. We have blueprints should we need to do this things in 
the future. And I think these kinds of activities have been 
very useful for us in getting a better understanding and 
actually having real solutions in hand to be able to make these 
things work.
    Mr. Forbes. Thank you, Admiral.
    Thank you, General.
    Thank you, Mr. Chairman.
    Mr. Hefley. Mr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Admiral, to continue the discussion about China, in your 
written statement you talk about the--I believe you describe it 
as the advisability of having increases military-to-military 
relations with China. Would you talk about that a little bit 
more, both from your perspective about what it is that you need 
to do but also from Congress's perspective? Do you have 
everything that you need from us in terms of furthering 
military-to-military contacts?
    Admiral Fallon. Yes, sir, be happy to talk to that. A 
little historical review here. Following the collision between 
the Navy EP-3 and the Chinese F-8 fighter in 2001, for all 
practical purposes, mil-to-mil engagement ceased with the PRC. 
Over the past year, we have been working to reestablish more 
engagements and closer ties through a whole range of endeavors.
    Why? Because in the absence of some dialogue, I think we 
are likely to pursue parallel paths that are not going to be in 
the best interests of this nation. We need to understand what 
the Chinese are thinking. We need to understand and have an 
appreciation of their military leaders and the role that they 
envision playing in their own policies and in the engagement 
with the rest of the world.
    As I travel through the region, there is not a stop that I 
make that I do not run into or have just come behind or coming 
after me Chinese representatives. They are engaged at every one 
of these countries in a major way, and it is in our interest to 
make sure that we stay engaged too.
    The idea that I have seen demonstrated in other parts of 
the world, for instance, I spent a fair amount of time working 
with the NATO alliance in Europe. One of the major benefits of 
that engagement with our allies in that alliance is the fact 
that people share information with one another. Other people 
get a chance to sit and look and see what their neighbors or 
fellow alliance members are actually doing.
    Dr. Snyder. Well, where is the obstacle in the development 
of mil-to-mil relations with China? Well, part of our policy 
decision by our government that has now been changed. ``The 
secretary of defense has supported my request to expand this 
engagement,'' and that is under way. There is one legislative 
restriction right now that is tied up in the 2000 National 
Defense Authorization Act that specifically prohibits certain 
activities that are more operationally oriented with the 
People's Republic of China (PRC). I have asked by members of 
the Senate my opinion of what we ought to do with that, and I 
am frankly considering just how to respond to that.
    Would you provide that information to us in written form--
--
    Admiral Fallon. Sure. Yes, sir.
    Dr. Snyder [continuing]. When you reach those conclusions, 
if you could get that to my office and the other offices here.
    Admiral Fallon. Will do, sir. Be happy to take it for the 
record.
    [The information referred to is classified and retained in 
the committee files.]
    Dr. Snyder. In terms of your broader view of a look at 
China, it has seemed like over the last decade, of course they 
have had tremendous economic expansion, that has contributed, 
it appears, to stability in the area. But then they also 
benefit, they still have hundreds of millions of people they 
are trying to lift out of poverty and get more stability in 
their economic development. But they still would benefit from 
the stability that comes from their economic development, from 
the U.S. presence.
    How strong do you see the partnership is between our 
country and the People's Republic of China when it comes to 
contributing to the stability in the region?
    Admiral Fallon. It is really an interesting situation. We 
have increasing economic, commercial ties in just about every 
sector of our national engagement, except the military. And 
this is disconcerting to me because I do not know how you can 
do all these other things and then have nothing going on in the 
mil-to-mil business.
    But it is a challenge, because, fundamentally, this is a 
communist country. At the end of the day, people in that nation 
do not have the freedom to do anything they care to. It is an 
interesting evolution of communism that they have allowed 
people to have quite a bit of initiative in the economic area. 
But as you mentioned, there is a huge difference in that 
country between what goes on in the eastern one-third and the 
rest of the nation.
    One point three billion people is a lot of folks, and from 
every indication that I see, they are very, very concerned 
about their ability to sustain economic growth in that country 
with these large numbers of people to feed and jobs to find. 
And there is not a day that goes by now that we do not see 
activity going on throughout that country that indicates that 
people are pretty restless.
    And so as I look at the potential possibilities of 
activities there, it seems to me that their focus on internal 
security has probably got to be a paramount concern. It give us 
some opportunities, because the rest of the nations in the Asia 
Pacific area, in every engagement that I have with them, 
reaffirm the enduring presence of the U.S. military as the 
primary instrument, historically and continuing today for 
stability.
    The other side of the coin is that China has afforded every 
nation in Asia phenomenal economic growth in the last several 
years. If you look at the data, the amount of goods that are 
traded to China for China's domestic market are very 
substantial. Raw materials coming from most of the nations 
around the periphery are fueling their economic recoveries from 
the last nineties crash.
    So the countries in the area really value our presence and 
certainly want us to continue. They also highly value the 
economic benefits of an emerging China, and they want to have 
it both ways, understandably.
    So the role that China plays is immense, but I think it is 
fragile in some ways because it is dependent upon their 
abilities to sustain security internally. All the more reason, 
it seems to me, that they ought to be very interested in 
engaging with us so that we have a better understanding of what 
both of us are about in this region.
    It is very complex, and the more that we can understand the 
situation, the better off I think we are going to be.
    Dr. Snyder. Thank you. And assuming that we can get your 
recommendations or even a menu of potential options on dealing 
with that legislative language, the better off we will be as we 
head into this expedited year under the defense bill.
    Thank you, both.
    Thank you, Mr. Chairman.
    Mr. Hefley. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Admiral, General, thank you very much for being here.
    I have had the great privilege and opportunity to visit 
with your personnel in Hawaii and Korea. I have also had the 
opportunity to visit Guam. Again, it is just so impressive to 
see the young people serving our country; so proud as a veteran 
myself, a member of this committee, a parent with three sons 
serving the military.
    And, General, I am very pleased, the fourth son has applied 
for an Army ROTC scholarship.
    But the leadership we have, I have never seen it better, 
and so I want to thank you for what you are doing. In Guam, I 
was very pleased, what a team they have with Congresswoman 
Madeleine Bordallo, Governor Felix Camacho. They are very 
effective in pointing out the strategic location of Guam, the 
warm hospitality, the extraordinary infrastructure in place 
which could accommodate additional troops, ships. And then the 
long service and loyalty of the people of Guam. They are pride 
of being Americans where America's day begins. So where you 
serve is extraordinary.
    Additionally, I appreciate so much what you have done for 
our new allies. Who would ever think that Mongolia now is a 
strong ally of the United States, an active participant with 
the United States in war on terrorism with troops serving in 
Iraq, in Afghanistan?
    And as the former co-chair of the India caucus, and how far 
we have come, and I would like for you to point this out or 
give an example about the new relationship we have with the 
Republic of India, the world's largest democracy? But this is 
all new, just within the last two years. There have been joint 
military exercises. Could you tell us about these joint 
military exercises?
    Admiral Fallon. Yes, sir; I would be happy to. The emerging 
relationship with India is certainly a bright spot for a host 
of reasons. It is a huge country as well, over one billion 
people. And it is a country that has advanced technology, that 
has tremendous impact in the economic and commercial world in 
this country and the rest of the region, certainly.
    It also present some challenges, because there are a lot of 
folks that have needs in that country as well. And because of 
their growing economy, they are also putting huge demands on 
energy resources throughout the region and the world.
    But the potential for good relations with that country and 
for continued growth and interaction are very high. In this 
past year, we have seen substantial progress in our military 
engagement. We see high interest from the Indians in doing 
things with us at just about every level. Naval and air have 
been the majority of the exercises, but we actually had some 
Army troops in that country, in the foothills of the Himalayas 
just a month ago doing an exercise at company level, and we are 
going to expand that to higher next year.
    So the potential is really good, and it is really 
important, because India is not only a huge number of people, a 
large country but crucial role. And if you look around the 
periphery of India, as I do, I see significant instability that 
they can be helpful in quelling.
    The trends in Kashmir, a long-standing major area of 
friction, the trends in that area have been very good in the 
last several months, and I think that that is, in no small 
measure, due to the increased confidence that the leaders of 
India, as well as Pakistan, feel in having the U.S. 
significantly engage with both countries. They know that we 
care about them and we are there to stay, and we are really 
going to continue to push a good relationship.
    And I have a strong feeling that that confidence is 
starting to spread and that they feel more comfortable in their 
direct engagement with one other, and we have seen a whole host 
of issues. But not without challenge. There are extremists that 
are, unfortunately, alive and still perpetrating their horrible 
acts in both nations. But in other areas around India there is 
instability in Nepal, in Sri Lanka, in Bangladesh, and we would 
certainly like to partner with India to help in aiding and 
abetting the return to stability and security in each of these 
areas.
    So I think it is critically important for us. We are going 
to continue to work our engagement with India. I have been 
there. I had a chance to meet with the leadership, and we are 
pursing a number of specific tasks to facilitate our further 
engagement with that country.
    Thank you, sir.
    General Bell. Sir, I could just give you an anecdotal 
perspective of the amount of effort that our Korean ally has 
made over the years and specifically today with respect to 
helping the United States in these missions that we are 
pursuing around the world.
    I know you know that they were staunch allies with us 
during Vietnam, Desert Storm and that they are out there in 
Operation Iraqi Freedom (OIF) and Operation Enduring Freedom 
(OEF) right now and certainly tsunami relief, et cetera.
    When the earthquake happened in Pakistan, I was sitting in 
Bagram Airbase in Afghanistan visiting my soldiers from 
Europe--I was commanding our Army in Europe at the time--and a 
NATO headquarters. But with me I had invited the allied and 
partnering nations to have breakfast with me, and so sitting 
next to me was a Republic of Korea lieutenant colonel. And as 
the floor began to shake and the place was waving around, I 
looked at this and I said, ``What is that?'' He said, ``I do 
not know but we are in this together.'' I said, ``Wow, I hope 
that the roof does not fall in.'' I mean, we were a long, way 
away from Pakistan, about 500 miles from where this things 
happened.
    I mean, so there they are, serving in the midst of our 
staff integrated on the staff with U.S. officers, both there at 
Bagram and another place in Afghanistan.
    When I was given responsibility for training the next what 
we call Multinational Iraq Headquarters, which was going to be 
surrounding the Fifth U.S. Corps stationed in Heidelberg, 
Germany just now. I put out a call for all the allies to join 
us at the seat of a tank training from the Cold War, 
Grafenwoehr, where we have a modern simulation training 
facility where we could simulate a wreck very effectively.
    And who showed up en mass, the Koreans. They brought their 
people, they brought their equipment, because they have a major 
effort in northern Iraq. And they exercised with us for a month 
and were a significant part of the operation there in this Cold 
War place called Grafenwoehr, Germany.
    The world is not perfect, but our allies that we have made 
over the years are hanging in there with us, they are 
contributing. They are on a team, and I think that sometimes 
that gets lost in the shuffle, and I wanted to share that with 
you, sir.
    Thank you.
    Mr. Wilson. And thank you very much.
    And as I conclude, indeed, I appreciate the contributions 
of Japan, and I have been in Afghanistan where I saw the joint 
U.S.-Korean provincial reconstruction teams and the progress 
that they are making improving the lives of the people of 
Afghanistan, tiny little projects that are enhancing the safety 
and health and security of the people of Afghanistan, which, 
ultimately, helps the families of Korea and the United States.
    Thank you.
    Mr. Hefley. We have one vote. Yes, I think we just have one 
vote, and we are going to try to work through this for the 
convenience of our witnesses. So if any of you that are down 
the line a little bit want to run and vote and come back, Mr. 
Hunter is doing that, that would be good.
    And we will go now to Ms. Davis.
    Ms. Davis of California. Thank you very much.
    Admiral Fallon and General Bell, thank you for your service 
and for being here today.
    I appreciate your discussion about the relationship with 
China and the military leadership there, because I think that 
if there is something in the way of that that we can try and 
work with, I would certainly appreciate that. You made a clear 
point of the fact that that is one area in which there should 
be and there can be improvement.
    I wanted to just look at the area as a whole, and you 
mentioned how dynamic it is, how challenging it is, and a 
number of the positive changes that have occurred in some of 
them as recently as last week. But I also wanted you to talk 
about how that can have an effect on increasing tension in the 
region, and just citing a few issues, the agreement with India, 
the relationship that that might have to the balance of power, 
the perception of balance in power between China and India.
    You mentioned the ballistic missile defense exercises with 
Japan. Does that have an impact on final Japanese relationships 
that affect China even in the Five-Party Talks there? How do we 
assess the extent to which we are increasing at times tensions 
or reducing them, and what is your general feeling, 
particularly on those two?
    Admiral Fallon. Yes, ma'am. I think regarding India, the 
feeling would be generally one of relief from the nations in 
the region that we are actually soliciting a very good 
relationship with that country. Because India casts a very 
significant influence on other countries in South Asia, and I 
think that there is little doubt that people feel when others 
are in regular dialogue that it is a lot better than nothing 
happening and lack of engagement.
    Of course, there are going to be some concerns, because, at 
the end of the day, we are never certain of what all the 
intentions are. But I believe that a good indicator would be 
the reaction from Pakistan to this, which would probably be the 
most obvious historic challenge in that region.
    And I believe that Pakistan recognizes that we have made a 
significant attempt to change an historic tilt to one that is 
more reasonably balanced. And the leadership of Pakistan has 
high confidence that we are committed to their continued 
security and development and are going to work with them in a 
multitude of efforts. At the same time, we are going to 
undertake this kind of an effort with India. So I think the 
overall perception is very positive.
    Regarding Japan, there, of course, is an interesting 
dynamic. In Northeast Asia, there are historic entities that go 
back for many years, certainly to World War II and even beyond 
that. And there is enduring mistrust, I am not going to beat 
around the bush, between every one of these countries. Japan 
feeling the need, in the wake, particularly of North Korea's 
saber-rattling in the last couple of years, their missile 
activity, I think felt a strong need to take what steps it felt 
prudent in securing its own defense.
    They recognized the fact that we have an emerging ballistic 
missile defense capability, and they have reached out very 
strongly to us to try to partner with us to acquire and to 
share information, knowledge and systems that might be useful 
to them.
    This is also beneficial to us, because the potential to 
have, for example, high resolution radar that we are currently 
negotiating the installation of in western Japan not only 
serves to provide for defensive awareness for the Japanese, but 
it provides a significant link in our system to alert us to the 
potential that missiles might be coming from somewhere to the 
west of that area and headed maybe beyond Japan. So there is 
mutual benefit there.
    Clearly, the U.S. is the one country that maintains 
relationship with virtually every--with, no doubt, every 
country in the region. And our ability to maintain good 
communication with each of these countries I think contributes 
to the overall stability.
    I will tell you right upfront that one of my challenges 
that I recognize in the are is that most of the countries are 
very interested in having bilateral relationships with us. We 
are even more interested in expanding those relationships to 
multilateral so that countries feel comfortable working not 
only with us but with some of their neighbors. And that is one 
of our enduring challenges that we continue to work.
    Thank you.
    Ms. Davis of California. Thank you. I appreciate that. 
Appreciate your adjusting the Six-Party Talks to five. Thank 
you.
    Mr. Hefley. Mrs. Drake.
    Mrs. Drake. Thank you, Mr. Chairman.
    Admiral Fallon, General Bell, thank you for being here with 
us today.
    Admiral Fallon, I would just like to ask you quickly, it is 
my understanding that Pacific Command is testing a new 
targeting system called Web-Enabled Execution Management 
Capability (WEMIC). Previously, this system was called Joint 
Defense Operations Center (JDOC), and my information was very 
much as a warfighter. Like JDOC, I have been told by the Air 
Force it needed to be converted over to this Web-enabled 
version called, WEMIC.
    So I wonder if you have been using it long enough, do you 
have information, do you know how it is being accepted by the 
warfighter? And, most importantly, do we feel it has been worth 
the cost and the effort to make the changeover?
    Admiral Fallon. Ms. Drake, I would like to take that one 
for the record. I am aware of the system, and I do not want to 
wing the detailed response to you. So if I could, I will get 
back to you with it.
    [The information referred to can be found in the Appendix 
beginning on page 130.]
    Mrs. Drake. Okay. I would appreciate that.
    Thank you.
    Mr. Hefley. Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And good morning, Admiral Fallon, a good friend of Guam's, 
we deal with you quite often, and of course General Bell.
    I would like to personally thank you, Admiral, for all of 
the great investments that PACOM is making to Guam. It is very 
clear that you and your command recognize the tremendous value 
that Guam has for U.S. national security and that Guam is a 
great place for American service members and their families to 
live.
    And, also, please accept my thanks to the work that is 
being undertaken by your deputy commander, Lieutenant General 
Dan Leaf, and the Joint Guam Development Group. We are really 
working very hard to make Guam an even better duty station by 
improving our local infrastructure.
    And before I go into my questions, Admiral, I do have three 
guests, Mr. Chairman, from the Guam National Guard that I would 
like to introduce: Colonel Santo Tomas, Chief Frank Pablo and 
Master Sergeant Jeff Holden.
    [Applause.]
    Thank you very much. We are indeed very proud of our 
national guardsmen and reservists. I think we have more per 
capita than any other state in the Nation serving, and they are 
serving in all parts of the world today.
    I am particularly interested--Admiral, this question is for 
you--in the recent decisions that have been made as to moving 
Atlantic fleet submarines to the Pacific. Guam is the home port 
to two and soon three submarines and has the capacity to host 
as many as nine.
    The submarines on Guam, because of their strategic 
location, are taking a large share of the operational mission 
days in the Pacific, and can you explain to me how the home 
port decisions for these transfers were made and the reasoning 
behind them.
    And, also, Admiral, you know better than I about the pace 
of Chinese submarines procurement and operations, and I am 
concerned that we are not building enough Virginia class 
submarines, that are neglecting anti-submarine warfare assets 
and that we are quickly being outpaced by our Chinese 
counterparts.
    The Virginia class submarines are especially valuable in 
the Pacific where we have multiple, irregular warfare threats 
along with large-scale conventional military threats, and the 
Virginia class submarines have the flexibility to handle these 
type of missions. Guam is vulnerable to stealth attacks from 
submarines, so I would like you to, if you can, address your 
concerns with submarine and anti-submarine warfare in the 
Pacific.
    Admiral Fallon. Yes, ma'am. Thank you.
    First, the rationale for home porting submarines in Guam, 
the priority issue in that decision was the ability to be on 
station in the western Pacific more quickly, more responsibly 
than if they were based further back in Pearl Harbor or on the 
west coast of the U.S. And so the advantage of the potential 
for more operationally available days is the significant 
driver.
    The Navy is gathering lessons from the forward deployment 
of these subs, three, now two and, as you indicated, another 
one to fill back in. We are assessing the performance of these 
ships. The feedback that I have gotten directly is that we are 
very happy with the operational responsiveness and what we have 
been able to get.
    We need to further understand the other implications of 
having these boats forward deployed regarding maintenance and 
the distance from maintenance facilities, the business of 
having our families moved out there and the capability of Guam 
to sustain that additional number of people and to provide the 
necessary facilities for those folks.
    So I think we have got a positive body of feedback from our 
experience to date. The Navy, I know, is going to look at this 
and then that will be a factor in deciding what to do with the 
additional boats that we would expect to move into the Pacific 
from the Atlantic.
    I think, in general, that is reflective of the reality that 
the Pacific region is much larger and, frankly, we have had an 
historic split that was based pretty much just on numbers of we 
will split them in half and put one in the Atlantic and one in 
the Pacific. And I think this more accurately reflects the 
challenges of today.
    Regarding the Virginia class subs, I think the Navy is 
doing their darndest to try to balance a lot of priorities. 
Little doubt we would love to be able to up the build rate of 
those boats to be more efficient in that particular line, but I 
am also aware that the Navy has got other challenges they are 
trying to meet as well. And I am confident that Admiral Mullen 
and his team will be working that one hard to come up with the 
best solution.
    Thank you, ma'am.
    Ms. Bordallo. Thank you, Admiral.
    And, General, if you want to add to any of this, please 
feel free to do so.
    General Bell. I would only offer that, one, I agree, 
obviously, with everything that Admiral Fallon said. Where I 
serve in Korea the North Koreans have a very significant 
special operating force capability, upwards of 100,000. Their 
plan is to insert those by air and/or sea, and, principally, 
that sea methodology is small submarines. So there is an anti-
submarine coastal submarine issue there that the Republic of 
Korea is addressing effectively.
    It is interesting, just recently they assumed from the 
United States that countersoft infiltration missions, again, 
one of these indicators of a mission that the Republic of Korea 
has taken aboard. But, nonetheless, our ability to control the 
seas and to prevent infiltration is a function of a combined 
naval effort led by the United States, in my view, and our 
capabilities in the Pacific are very important to me in that 
regard.
    Thank you.
    Ms. Bordallo. Thank you, General.
    Another question, Admiral, and this is one of my favorite 
questions, I know that the discussions are ongoing currently as 
to when and where an additional carrier will come to the 
Pacific. And Guam, as you know, is watching closely. I would 
like to mention here that the military is very welcome on Guam. 
Traditionally, we are a military island, but I continue to hear 
of increased numbers and durations of port calls by U.S. 
carriers on Guam.
    So can you explain how Guam may be used to increase the 
availability of carrier assets in the Pacific by having longer 
duration port calls on the island?
    Admiral Fallon. Let me, if I could, ma'am, go back to 
Admiral Mullen recently publicly committed to making every 
attempt to maintain a six-carrier presence in the Pacific, and 
I applaud that. These are very valuable assets and used in a 
multitude of tasks.
    My priority for the western Pacific regarding Guam would be 
to try to develop more of a capacity to sustain operations in 
the western Pacific area. So when I recently visited Guam and 
went down to look at the facilities in the port area, there is 
certainly an ability to take a ship and bring into the harbor 
and to anchor it there. And I am sure the crew would enjoy some 
time down now, some liberty time in Tumon Bay and other parts 
of the island. But it seems to me that there is not a very 
extensive capability right now to sustain a forward presence in 
the area.
    So we are looking at that as part of the task I have given 
General Leaf to examine the infrastructure on Guam so that we 
fully understand what is there. And as we contemplate a range 
of potential options to make more use of this U.S. territory 
here, that is certainly going to be one of the things that is 
high on the priority list. So we will keep you posted and if 
there is an opportunity for the Fleet Commander to cycle more 
ships in there for port visits, I am sure he will take 
advantage of it.
    Thank you, ma'am.
    Ms. Bordallo. Thank you. Thank you, Admiral.
    I have one last question, Mr. Chairman. I guess it is 
fortunate I am one member of this committee that cannot vote on 
the floor, so I can sustain this time period here.
    The Chairman [presiding]. You know, it is very instructive 
to listen to the gentlelady and her expertise in that great 
area of the Pacific, so you go right ahead.
    Ms. Bordallo. Thank you. Thank you, Mr. Chairman, very 
much.
    I am working currently with this committee to increase the 
vehicle authorization to two for service members assigned to, 
well, any of the European locations, I guess, Guam, Hawaii. I 
know this is very important to our serving families, especially 
working spouses. And I would be pleased if either yourself or 
the General, the both of you, could comment on how service 
members in PACOM's area of responsibility would feel about such 
an increased authorization.
    I know that many of my constituents, service families, have 
asked me about it, and I do know that I think it was explained 
earlier that you do have the used cars that go from one family 
to another, but there is also when they are assigned overseas 
sometimes families have to sell a second car and many times 
they are losing on a deal such as that when the time for 
deployment is quick.
    So do you have any comments on a two-vehicle authorization?
    Admiral Fallon. General Bell, you want to try that for 
Korea and then I will back you up here?
    General Bell. I will talk about Korea and then I will talk 
about in general, because I have lived this issue for some 
years.
    First, in Korea, I do not think it is a requirement. We are 
very close in there. There are not large numbers of accompanied 
family members. We do have some and we are trying to increase 
it. Right now, in Korea, and, again, I have been there a short 
while, I do not see the requirement as being as interesting as 
I saw in Europe where I raised this issue frequently.
    The spouses were a fully accompanied force over there. 
There were jobs for spouses to have. They needed 
transportation. This is 2006; it is not 1885. They needed a 
conveyance. They would almost always have to buy their own and 
sell one in the states on the way over, so there was a money 
loss here, it is quite clear.
    And, you know, I understand the services and the Office of 
the Secretary of Defense (OSD) have lots of priorities and we 
respect that, and I would not get into service matters here 
right now, but the issue of authorizing two vehicles per family 
is a legitimate issue for our services, it should be 
prioritized against our other requirements, it ought to be 
reviewed carefully, and I think it has merit.
    Thank you.
    Admiral Fallon. I will confess that I had not paid any 
attention to this, was not even aware of the issue until I 
moved to Hawaii last year, whereupon my wife informed me that, 
``Oh, by the way, I would be paying for that second car that we 
felt we were going to move out there.''
    So now I have some awareness. I will tell you, though, that 
it is really a mixed bag because on Oahu, for example, Mayor 
Hannemann probably would be very happy if I helped to not 
introduce too many more vehicles on that island because it is, 
frankly, choking in traffic. You cannot move on the H1 trying 
to get east to west on the island. And in fact they are trying 
hard to develop a mass transit system to try and alleviate the 
problem.
    So I recognize that it is an issue with some families, and 
I guess that it would be nice to scratch every itch and to have 
every one of these things resolved so that nobody had anything 
out of pocket, but it also, I think, serves another purpose 
right now, certainly in Hawaii, and that is to have people 
think really a little longer and harder about the actual 
necessity. And I will tell you, in my own case, if I had to do 
this again, I would not have brought the second car, but we may 
not be representative of all the families there.
    I got the point. In fact, I do not know that we have 
actually done any significant survey work to find out what the 
situation is. Guam, because of the low density, might be an 
area that would be worth looking at it.
    I will take a look at it and give you some feedback, ma'am.
    [The information referred to can be found in the Appendix 
beginning on page 131.]
    Ms. Bordallo. Thank you.
    Thank you very much, Admiral and General.
    And thank you, Mr. Chairman.
    The Chairman. Okay.
    I thank the gentlelady.
    And Admiral Fallon and General Bell, I really apologize 
because I have had to break away here, and I, unfortunately, 
have got to break away again, and the very able Mr. Schwarz is 
going to take over the Chair here.
    But let me, since I did not ask a question upfront, let me 
just ask a couple of questions before I go.
    General Bell, we have got substantial MILCON costs that 
will emanate from the relocation, which I think is a wise 
thing, this redeployment, getting out from underneath that 
North Korean artillery fan is not a bad idea, especially with 
the drawdown in forces. But we are going to have a MILCON price 
tag attached to that.
    And my request is to do a real heavy duty scrub on that 
price tag, on that MILCON price tag. We used to be in the 
business of building houses, and you can build a house for 300 
square feet or you can build one for 80, and they both pass 
code. And I know that the host country eagerly awaits those 
construction contracts, but we have got lots of money being 
spent on ammo right now and readiness and other things that are 
necessary for the warfighter. So I would hope that you could 
scrub that heavily.
    Second, the Korean military up to some 21 divisions, I 
understand. Is it your take that they have a fairly strong 
readiness number on their divisions? And is 21 roughly 
accurate?
    General Bell. Thank you, sir. Let me first address the 
MILCON.
    The Chairman. Okay.
    General Bell. I have got your message, and agree with it 
totally. I want to make sure that I am comfortable. I can tell 
you, I reviewed the 2007 request down to the last dollar. It is 
appropriate, it makes sense, it is in the right place, and it 
is something that we ought to fund, in my view.
    The Republic of Korea is spending about $4 billion moving 
us south. They have spent already cash in the ground, $1.8 
billion. I mean, this is phenomenal, in my view. Burden 
sharing, however you measure it every year in consumables, is 
$500 million to $1.2 billion.
    There are lots of ways to slice this thing, but most of our 
construction, the vast majority of construction, for the move, 
Mr. Chairman, is being funded by the Republic of Korea (ROK) at 
their expense, because they are the ones that fundamentally 
asked us to move out of downtown Seoul to the south.
    Now, where they did not ask us to move but we want to move, 
and we have agreed to share a portion of that burden, so I 
think we are doing well by the American taxpayer. I accept, 
nonetheless, the need to continue to scrub hard and to make 
sure that I do not let anything get in here that is not 
absolutely necessary.
    The Chairman. You know, just in terms of configuration, 
things that are not necessarily security dominated but are 
things that with respect to the location of personnel and the 
amenities, you might look at finding American building 
corporation that has got--and you might ask them for advice to 
take a look at the footprint and the efficiency of the 
construction operation and see if they have got any ideas in 
terms of giving you the most bang for the buck, not cheap stuff 
but a configuration that best lends itself to efficient and 
inexpensive construction. Because we are going to be stretching 
dollars this year, you understand? I know you know that better 
than anybody.
    Last question is that we face, and we will face--now, if 
you give us this take on the South Korean military, 21 
divisions; is that roughly accurate?
    General Bell. Mr. Chairman, I need to get back to you on 
the number of divisions.
    [The information referred to can be found in the Appendix 
beginning on page 129.]
    The Chairman. Okay.
    General Bell. Because they have, like we in the active 
component and reserve component, they have got a large reserve 
force. Their army is 580,000 active, larger than our Army 
active, and very large reserve component. They have got three 
field armies. And I have gone and looked at all these, but I 
will tell you, sir, I cannot give you a division count at this 
moment.
    The Chairman. Okay. But is your take on the South Korean 
army that it is ready to stop a move from the North?
    General Bell. Absolutely. They are spending the money they 
need. Two point eight percent of a very healthy GDP goes to 
their military. That is higher than any of our European allies, 
for example, substantially higher.
    The Chairman. How much is the GDP?
    General Bell. Two point eight percent. They are spending 
their military budget. It sounds small but----
    The Chairman. It does.
    General Bell. But, sir, it is larger than Great Britain, 
for example, who spends about, I think, 2.6 of their GDP.
    The Chairman. Except Great Britain does not have a 
Demilitarized Zone (DMZ).
    General Bell. No, sir, they do not.
    The Chairman. Okay.
    General Bell. But I will tell you that I have looked at 
this force. They increase spending every year, real dollars 
this past year. They had a 6.7 percent increase. Their goal is 
about 9 percent a year increase through 2020. They are putting 
real increases. As we transform our mission and they are 
required to spend more money on defense, to date, for the last 
3 years they have been doing that in real terms.
    So I think it is a positive story, and I will keep the 
committee posted on where they stand, but I am satisfied right 
now that they are committing and they are spending more money 
every year in real terms.
    The Chairman. Okay. Okay. Thank you.
    And, gentlemen, I will make an extra point to follow up 
personally, because I really apologize for not being able to be 
here during this full hearing. But we will do that. And Mr. 
Schwarz will take over the chair, and it is his turn to ask 
some questions.
    Thank you for your service to America and all the great 
people who serve with you. They are carrying out the most 
important mission possible and that is our security, and we 
appreciate it.
    Thank you, and I will make a point to get with you as soon 
as we get these other things taken care of.
    Dr. Schwarz [presiding]. We will go to the gentleman from 
Hawaii, Mr. Abercrombie.
    Mr. Abercrombie. Thank you very much, Mr. Chairman.
    I am glad that Ms. Bordallo kind of opened the way for me 
to bring up the question, Admiral, with regard to Pearl Harbor 
and this carrier. The question really is not about the carrier. 
I think you are well aware of my position that this is a 
strategic decision and that I regret very much and disassociate 
myself from a lot of commentary about this carrier decision in 
terms of economic benefits, real or imagined, and all those 
kinds of things. You are aware of my views on that.
    But the difficulty here, because the Quadrennial Review and 
this decision-making process has been so lengthy, the 
difficulty is, is that it has thrown completely off--it has 
thrown off completely, rather, our ability to make a decision 
on, among other things, transit, which, as you know, we have to 
make over the next nine months. In fact, the final decision has 
to be made as to whether to go ahead with rail transit, 
particularly the routing. The council has to vote on a 
preferred alternative. I have had to do this myself in the 
past, so I know what pressure is on that and the necessity of 
it.
    This has to do with the base closing procedure at Kalaeloa, 
Barber's Point area. You are probably also aware I have always 
voted against this Base Realignment and Closure (BRAC) thing 
because I never believed it was going to be done or that it 
would not be reneged on or reviewed or reconsidered and all the 
rest of it. And, of course, that is exactly what seems to be 
happening here.
    Now, I was very pleased last week to speak with the 
Secretary of the Navy, Secretary Winter, and Admiral Mullen, 
who indicated they would work with me on this. We have to have 
a decision there. That land around the top of the base is for 
housing, and where the route is going to go for mass transit we 
have to make that decision and it is bordered on either side by 
Hawaiian homelands, parcels and this golf course and a couple 
of beaches. Now, there is no way on earth that there is a 
strategic interest in keeping a golf course. It may add to the 
recreational inventory, if you will, on Oahu, but it is an 
outrage to have that happen in the context of being serious 
about national security.
    We have to have that housing, and that land has to come, 
regardless of what you do with the carrier. That land is not 
going to be suitable for housing. You can maybe keep the air 
base for the helicopters, I do not know, but that is what we 
have Fort Island for.
    So my question is, is regardless of what you are doing with 
a decision on the carrier, can't we resolve this issue or when 
are we going to be able to resolve this issue of getting this 
land turned over so that we can get on with our decision-making 
on transit and building housing?
    Admiral Fallon. Congressman, that is really the Navy as 
opposed to PACOM, but I will be happy to get with them to see 
if there is anything we can do.
    Mr. Abercrombie. Okay, fine. I will take it from there. But 
I would very much appreciate it if you would put this on 
agenda, get with the Navy and say, ``Look, this has to be 
done.'' And I think you are well aware that when it comes to 
Fort Island, that is the place to go for housing, and it also 
is imperative that we put more housing in than is presently 
planned at Fort Island if you make that decision, because the 
transit stations are also going to go there. We have to make 
that decision.
    We really, really, really need to have the housing side of 
this taken off the board regardless of what you do with the 
carrier. And if the carrier decision is made, I assure you 
there is plenty of opportunity and ample provision can be made 
for the necessary housing and logistics absent the Kalaeloa 
circumstances.
    Admiral Fallon. Sir, I will do what I can. Thanks.
    Mr. Abercrombie. Thank you.
    The last question I have has to do with Guam and Okinawa. 
You may be aware of my long-standing interest in this area, and 
I am pleased to see that this administration has caught up with 
where I think we needed to be ten years ago, but I have in 
front of me the U.S.-Japan alliance transformation and 
realignment for the future agreement. The doc is called a 
security consultative committee document from October of last 
year.
    And without going into all the details of the acceleration 
of the Futenma relocation and the rest of it, what bothered me 
here is the consultation with local community leaders and 
officials in Okinawa seems to me, at best, at bear minimum or 
non-existent, in putting this together. And the information I 
have is there is still a lot of consternation over the 
extension of the extended runway out into the bay and all the 
rest of it.
    So I would like to know how far have we moved, in practical 
terms, toward implementing the Futenma relocation, in practical 
terms, and then how far are we moving in the budget terms and 
that to actually transferring the Marines to Guam, and how far 
have we moved, in practical terms, and what are the budget 
implications for the joint use at Camp Hansen and the other 
promises that were made with regard to relocation of forces on 
the island, from the southern portion to the northern portion?
    Admiral Fallon. Congressman, there are a lot of issues that 
are tied up in this framework----
    Mr. Abercrombie. I know you cannot answer the whole thing 
in three minutes.
    Admiral Fallon. Well, I will tell you what is going on. As 
we sit here this morning, a couple of hours out in Hawaii we 
will be reconvening a large group of folks who are in their now 
third iteration of trying to work through the details of these 
implementation plans. There are a host of issues that we needed 
to resolve just on the U.S. side regarding detail of each phase 
of these moves.
    There is a self-imposed deadline of the end of March the 
Secretary has put on this to try to tee up the way ahead in 
each of these implementation plans.
    So I know that there are lots of issues buzzing, there are 
a million pieces on the table, but we are working very hard to 
try and get these things----
    Mr. Abercrombie. The decision made at the end of March, 
will it manifest itself in----
    Dr. Schwarz. The gentleman's time has expired. We could do 
another round, but Mr. Simmons, Mr. Larsen, Mr. Marshall----
    Mr. Abercrombie. I will follow up in writing, if you would.
    Dr. Schwarz [continuing]. Need to ask their questions, as 
do I.
    And I just happen to be up next.
    Let's talk about Indonesia for a second, if we may. Let's 
talk about the Malacca Strait, the Sundra Strait, the Bali 
Strait, the Flores Strait, how open the channels of navigation 
are, what the cooperation is with the Indonesian government, 
the Indonesian navy, the Malaysian navy as well and what is 
going on in the Spratlys and the Paracel Islands.
    And I am just going to allow you to free associate on all 
those, Admiral Fallon, if you do not mind, and tell me what is 
going on. Are we getting port calls in places like Surabaya or 
Tanjung Perak? What is the relationship with the most populous 
Muslim country in the world right now that sits afoot all of 
these vital maritime channels?
    Admiral Fallon. Yes, sir, Congressman Schwarz. I will tell 
you that this is a pretty bright spot of optimism in the 
Pacific region. I just came back from Indonesia last week and 
Malaysia. One of the primary purposes of that visit down there 
was to, in addition to meeting with the leadership of both 
countries, was to actually get out and get eyes on several of 
these regions that have been historically challenging for us in 
terms of security.
    First, regarding the Malacca Strait, a critically important 
waterway, half the world's oil, more than a third of our U.S. 
trade comes through that strait every month. It is critical not 
only to us but to every country in the region, if not the 
world. But a lot of interest in recent years on this particular 
body of water.
    Last summer, I attended a meeting in Singapore with all of 
the chiefs of defense from the region, including Secretary 
Rumsfeld going out and one of the principal topics of this 
weekend's meeting was security in that strait. So I have been 
very interested in following up on it to see where we are.
    I will tell you today that I feel much more confident that 
not only is there renewed interest throughout the world in this 
area but there is action being taken particularly by Indonesia, 
Malaysia and Singapore, the principal neighboring states, 
Thailand also included, to address the security concerns.
    I actually went and looked at specific facilities that each 
in these countries. I met with leadership in Jakarta and Kuala 
Lumpur and in Singapore. And then I went downrange to the 
actual strait itself to look at what is really going on.
    And I will tell that while Indonesia certainly would like 
to have more capacity and one of the things I would certainly 
like the Congress to doing is to somehow increase the amount of 
funding that is available for foreign military engagement with 
these countries.
    If I could give you just one data point. This country 
spends about two billion and some dollars on foreign military 
engagement throughout the world. The entire Pacific region, 43 
countries, half the world's area, gets less than one percent of 
that money. This year, we have a grand total of $1 million that 
we have earmarked to try to help Indonesia. The country is 
emerging from some challenging times. It has a vibrant new 
democracy. It is a country where 76 percent of the population 
actually voted in their last national election, so a lot of 
trends are moving in the right direction. They need some help. 
We have a lot of capacity to do that. I would sure like to do 
what we can from this country.
    But back to the specifics. They are committed to improving 
security in the strait. They are committed and have already 
started the construction on a series of coastal radar sites, to 
give them better visibility into their part of it. Singapore 
has already established that capability and has it. Singapore 
has undertaken an initiative to build a regional command and 
control center on the island to which they have invited the 
U.S. to participate and other regional countries.
    Malaysia has substantially increased security there. They 
have coastal radar sites already in operation. Malaysians have 
proposed a joint surveillance program, they call Eyes in the 
Sky, just getting under way now to figure out a way to provide 
materiel. We can also, from the U.S. side, help them in this 
area that would increase the security in the larger areas.
    So there are a host of issues that are proceeding.
    One of the things that I would be particularly encouraging 
is better cooperation between those countries. They are the 
people that need to do it. They are not interested, by the way, 
in having us come and do it; they want to do it themselves. I 
applaud that initiative. But they need to continue to be 
encouraged.
    In other areas I also went over to the area that I am most 
concerned about for security in the form of terrorism, and that 
is the area, the so-called Sulawesi, or Celebes Sea, southern 
Philippines, northeastern Indonesia and eastern Malaysia, 
Kalimantan; as it is known in those parts.
    Dr. Schwarz. Borneo.
    Admiral Fallon. I actually went to visit several sites in 
the area to see what is going on. I was encouraged, 
particularly Indonesia and Malaysia, a renewed sense of 
attention to the area. They know that this is a transit route 
for bad guys, for the terrorists and their supporters. They 
know that they are moving around and as the heat gets on in one 
place, they try to scurry to another place. In fact, they and 
we both call that string of islands that connect these areas, 
``the rat lines,'' for the local population, the two-legged 
variety. And so they have renewed emphasis on working this, and 
I feel that we are making progress in the area.
    So my overall assessment is positive. There is a lot of 
work to be done. There are still a lot of bad actors that need 
to be taken off the street in this area. And I think that as 
the rest of the countries in the world recognize the steps that 
have been taken by these countries, it ought to encourage 
them--by the way, the issue of piracy that has come up again 
and again in the area, particularly the Bangka Strait, far and 
away the majority of this stuff is criminal activity by local 
characters that are out for their own benefit, as opposed to 
international terrorist operations.
    I would also point out that the instances of piracy in this 
last year of 2005 dramatically lower than the previous several 
years, which had been an upward trend. So the data indicates, 
and my observations indicate we are making progress in this 
area.
    Dr. Schwarz. Thank you very much for giving us that update 
on what I think are, if not the most important, certainly some 
of the top five or six most important sea lanes in the world. 
And as a former assistant naval attache in Indonesia and 
Jakarta many years ago, I thank you for your interest in that 
part of the world.
    The gentleman from Washington, Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. And that was in fact 
one of my questions I had, but I do want to follow up quickly. 
This might be an easy answer for you.
    It seems to be this is in fact one of the most important 
places in the world for us to consider, and yet I do not know 
that members of this committee as an organized group have 
visited that area. We go to China and Korea, and Korea is 
obviously a place we ought to go, but it seems to me that this 
is an area that we ought to go as well.
    So my question, again, the softball to start, is if we are 
able to put something together to identify specific countries 
to put our own eyes on the ground, is this something that 
Pacific Command (PACOM) would help with, would welcome and 
would help with?
    Admiral Fallon. We would welcome you to come and see, and I 
think the Indonesian government would also welcome visitors. 
When I was out there last week, Senator Feingold from Wisconsin 
came by and we were able to join up and spend a day looking at 
specific things in the country.
    He remarked to me, shaking his head, that the Indonesians 
told him he was only the second U.S. senator to visit in recent 
times to that country. So I think there would be benefit in 
actually getting eyes on. It is a huge country.
    Mr. Larsen. Yes.
    Admiral Fallon. Indonesia is broader across than the 
mainland U.S., 230 million people, the majority of Muslims, far 
and away a very moderate country. They are interested in 
negating the kind of radical ideas that are so prevalent in 
other parts of the world. We need to be, I think, taking 
advantage of this.
    Mr. Larsen. And you mentioned both in your written 
testimony and your response to Mr. Schwarz's question that 
perhaps one thing we will get to focus on is the foreign 
military financing and trying to direct dollars to this region 
a little more closely; is that right?
    Admiral Fallon. Absolutely right. I will give you a couple 
of examples. Last year when the tsunami hit in this region, the 
most affected country was Indonesia. Their ability to respond 
to help themselves was severely crippled by the inability to 
put their mobility assets into the sky, and those are American-
made instruments, mostly C-130's and helicopters. Did not have 
the spare parts now. Part of this as a result of an embargo 
that we had placed on those materials that have now been waived 
by the secretary of state.
    Mr. Larsen. Right.
    Admiral Fallon. But there are a lot of things that could be 
done. The Congress last year in direct language in the 
legislation that applies here told me to direct those funds to 
maritime security, and I am happy to do that. That is their 
first priority as well, and so I think this will be some money 
very well spent.
    Mr. Larsen. Okay. With regard to China, you have been 
quoted in various U.S. papers as well as the regional papers 
over there about military-to-military relations. Could you 
describe for the committee an ideal military-to-military 
exchange program with China?
    Admiral Fallon. Well, what I would really like to see----
    Mr. Larsen. Yes.
    Admiral Fallon [continuing]. Is the kind of relationship we 
enjoy with most every other country in the region, and that is 
one where we can regularly interface, where if I have a need or 
desire, feel the need to go visit that country, we can pretty 
readily make arrangements to do that and it does not take 
months of negotiation to come to a satisfactory arrangement, 
which is, unfortunately, where we are with China today.
    Part of that problem is bureaucratic and systemic with 
them. They funnel every activity through one office in their 
Ministry of Defense.
    Mr. Larsen. Right.
    Admiral Fallon. But my idea of goodness would be where we 
exchange at multiple levels. And so we have pretty good insight 
into what they are doing, what they are feeling. We understand 
their people, we know who their leaders are. They know who we 
are. There is confidence in an ability to engage.
    I can pick up a telephone and call my counterparts in 
virtually every other country, except Myanmar and North Korea, 
at the snap of my fingers, and we can have some meaningful 
dialogue on whatever the issue. That is not possible today with 
China. And part of this, a good piece of this is getting them 
to be less suspicious and more open, and it is not going to 
happen overnight. We have just got to keep working on them.
    Very important. In the absence of knowledge, we are going 
to be making assumptions, and most of those will probably end 
up being wrong.
    Mr. Larsen. So I guess to rephrase what you just said, with 
regards to your ability to pick up the phone and make a call, 
China is in the same category with Myanmar and North Korea.
    Admiral Fallon. No. Technically, I can get through but to 
get a meaningful engagement----
    Mr. Larsen. To get a meaningful engagement, yes.
    Admiral Fallon [continuing]. It is a non-starter.
    Mr. Larsen. Yes. It is a long slog to make that happen.
    Admiral Fallon. The openness is not there. The willingness 
to actually engage has yet to be seen.
    Mr. Larsen. All right. Quickly, my last few seconds, I will 
ask the question for General Bell. Later this afternoon we have 
a hearing in the subcommittee on missile defense, and so I 
would like to get your thoughts on the role that Patriot, 
THAAD, and Aegis plays in your responsibility and why it is 
important and what, if anything, needs to change or get fixed.
    General Bell. Thank you. There are philosophically three 
kinds of missiles we have to be able to defense against. One 
are the tactical short-range missiles that we have seen just in 
the last couple of days more developmental activity. There are 
lots of fielded missiles in North Korea, the old scuds but they 
are effective. They have got a bunch of them, we think about 
600. They have got the Nodong missiles which are longer range. 
These are fielded, we think several hundred. They have a range 
of out to 1,300 miles. They will go past Japan, et cetera, et 
cetera.
    So the first thing you have got to do is defend against 
these tactical missiles. They affect you on the battlefield, 
and, as you know, we have got a pretty darn good system to do 
that. We could always use more but the Patriot and Aegis both 
provide the kind of coverage that is effective against these 
kind of tactical missiles.
    The longer range, medium range, developmental programs that 
North Korea has ongoing, while we have not seen a lot of 
activity in that in recent days, we have seen a lot of activity 
in these short-range missiles. We certainly have seen it in the 
past. We know they have the technological wherewithal to 
continue to develop these kinds of medium and even long-range 
Intercontinental Ballistic Missiles (ICBMs).
    The Taepo Dong II and III, as we call it, which were in 
development and presumably still are, could reach far beyond 
any requirement they have for defense, all the way to Alaska 
and even estimates are the Taepo Dong III could reach 
throughout the continental United States.
    So as long as the North Koreans continue to pursue missile 
technology, have an active testing program, have a nuclear 
weapons program that sits beside that, it is in our best 
interest that the total layered array of air defense 
capability, a multiservice land and sea and for that matter air 
across the full spectrum out to include intercontinental, in my 
view, is prudent. It makes sense for America and our allies, 
and we ought to continue to develop and invest.
    Dr. Schwarz. The gentleman's time is expired.
    The gentleman from Connecticut, Mr. Simmons.
    Mr. Simmons. Thank you, Mr. Chairman.
    And thank you both, gentlemen, for your distinguished 
service and for your appearance here today.
    I will direct my questions to Admiral Fallon and start by 
saying when you were at Villanova doing your Navy ROTC, I was 
down the road at Haverford with the Quakers. We did not have 
ROTC there. But we really enjoyed having the Villanova track 
team use our field house. It gave me as a track guy the 
opportunity to run with some of the national leaders when it 
came to track and cross country. So it is good to have you 
here.
    Admiral Fallon. Thanks. I used to be on that team too and 
followed them around. I was the anchor man there. I lived right 
across the street from Haverford.
    Mr. Simmons. I was lucky to keep up with David Patrick when 
he was just doing an easy job.
    You and I have exchanged letters regarding the President's 
proposed package to sell submarines to Taiwan, and I appreciate 
your comments last November that you are fully committed to 
obligation to provide Taiwan with the necessary capabilities 
for its self-defense.
    I recently returned back from Taiwan, and what I was 
hearing from many of the officials that I met was confusion 
over the apparent U.S. insistence that they commit to a $12 
billion package before there would be any forward motion. And 
they felt that the Navy was dragging its feet on that project. 
In fact, the Taipei Times of just a day or so ago says, ``The 
U.S. Navy has refused to negotiate on the budget before the 
submarine is approved by the legislature.''
    A lot of foreign military sales involve the sale of a 
package that has been designed and built and is understood, 
even though the equipment packages may be tailored for the 
sale. But we are dealing with a unique situation here. We are 
dealing with the design and construction of a diesel submarine 
that does not exist. It is not in existence. And it is my 
understanding that the conceptual design work and the detailed 
design work probably would cost around $200 million.
    And the question that I pose to you and that they posed to 
me is, why do we have to commit to $12 billion not knowing what 
it is? Why don't we commit to the design work, the detailed 
design work for a couple of hundred million and that gives us a 
benchmark to know how and whether we should proceed? In other 
words, if you are going to build a house, show me the plans. I 
will pay for the plans, and once I see the plans, I will decide 
whether I go forward with the house, whether it will be three 
stories or two stories, have bedrooms, et cetera.
    Would you comment on that proposal, please?
    Admiral Fallon. Congressman, I am not familiar at all with 
the details of the construction business or the things that 
U.S. Navy--the role the U.S. Navy might play in any of that. 
But I will tell you I am a little bit surprised that the 
business of the $12 billion, as you characterize it, it seems 
it is either an all or nothing thing.
    I am all for making progress in this area, and I do not 
know that there is any requirement or restriction, legislative 
or otherwise, that would preclude the Taiwanese from taking a 
chunk out of that elephant. And I have been trying since I have 
been in this job to encourage them to do something to make some 
moves rather than nothing, which is what has happened so far.
    The way I see this, you have got me in bit of a box here, 
because I am committed to defend this country in the event of 
any military aggression should that occur from PRC, and yet the 
history is that they have not been forthcoming in investing in 
their own defense. And I do not understand the reluctance to 
move forward. If they feel they cannot, and this is their 
business, obviously, it is their legislature that has to decide 
this, but I do not quite understand why they could not consider 
a decision that would say, ``Let's take a chunk of this 
material that has been proposed by our country and get on with 
it.''
    Mr. Simmons. And so you would support the concept of 
breaking out the design work as a portion of the project.
    Admiral Fallon. I do not know enough to tell you that that 
is a good idea or not. What I would like to see is some steps 
being made, some investment by Taiwan to actually acquire some 
of these capabilities and to boost their own readiness and 
ability to provide for their own defense.
    Mr. Simmons. I certainly agree with that, and I certainly 
would not want to commit U.S. forces in an area where local 
forces are not willing to fight. I spent almost four years in 
Vietnam. I was drafted into the U.S. Army before there was 
mandatory draft in Vietnam. That came after the Tet offensive. 
And so I am a great believer in partners and partnerships.
    One of the problems we have, of course, is with Taiwan 
high-ranking military officers are restricted from visiting 
there. Capstone officers do not visit there. I do not know 
whether you have been there.
    Admiral Fallon. No. I am not permitted.
    Mr. Simmons. You are not permitted to, and so we are 
dealing with a ridiculous situation, in a way.
    Admiral Fallon. But I will tell you that we have had 
extensive engagement. In fact, just last week we had a 
delegation from Taiwan who was in our headquarters, and there 
is some reason to be optimistic here. I think that we are 
making progress in convincing the leadership, certainly the 
military leadership of the necessity of taking steps that would 
be fundamentally helpful in increasing defends. And we have had 
pretty extensive negotiations with them.
    So I just wish somebody could decide to make some progress 
on the budget side of the House.
    Mr. Simmons. Well, I think you know that I am working on 
that.
    Would my colleagues yield me one additional minute?
    Dr. Schwarz. Without objection.
    Mr. Simmons. We are moving submarines from a 50-50 to a 60-
40; 60 percent in the Pacific, 40 percent in the Atlantic. We 
are doing that because, in my opinion, we do not have enough 
submarines. We have not yet committed to two a year for the 
Virginia class, and it does seem to me that if we have allies 
in the Far East and elsewhere who wish to purchase from us 
diesels, that we should be stepping up to the plate.
    It also occurs to me that we should increase the build rate 
of our own strategic subs, the Virginia class. What are your 
thoughts on that subject?
    Dr. Schwarz. Admiral, I am going to ask you to be pretty 
brief on this one. We have Mr. Marshall left here, and I know 
all of us have places to go and I am certain that you do.
    Mr. Simmons. Well, let me just say I believe we should be 
building two a year. You do not have to respond, and thank you 
very much for your testimony here, sir.
    Admiral Fallon. Thank you, sir.
    Dr. Schwarz. Mr. Marshall, gentleman from Georgia.
    Mr. Marshall. Thank you, Mr. Chairman.
    We certainly appreciate your service and the service of 
everybody that you command.
    Admiral Fallon, enjoyed having dinner with you over at 
Secretary Rumsfeld's. We wound up having quite an interesting 
conversation. I do not know how we wandered into that area, but 
it was quite interesting.
    I managed to get back to Vietnam early last year, along 
with Mr. McHugh and Mr. Calvert. We went to visit with the 
Vietnamese government and the Laosian government concerning 
POW-MIA issues. And it happens that this morning I received the 
minutes from, I guess, a very recent meeting of the National 
League of Families. Read through those minutes and thought that 
I should bring a few things to your attention.
    And I am getting this information from those minutes. These 
folks pretty much stay right on top of this business, and so I 
suspect it is accurate, but I do not know that is the case. I 
have not had an opportunity to check it out.
    They are initially quite concerned that Joint POW/MIA 
Accounting Command (JPAC) funding, which goes to PACOM is not 
fenced and is going to be diminished. They believe that $60 
million is needed, it is in the budget, should be spent. They 
are worried that about $12 million is going to be taken from 
that amount, and they specifically say, and I will read this 
sentence, ``Providing JPAC has sufficient funds from the U.S. 
Pacific Command, field operations will resume in Vietnam in 
late February. If funding does not come through, these 
operations will be drastically reduced, and the next joint 
operations in Laos will be as well.''
    They observe that the President is planning a visit to 
Southeast Asia in the fall and they think this is--there is 
never a good time to be reducing the funding for this kind of 
mission, and this is a terrible time to reduce funding for this 
mission. And I would like some assurance, if you can give it to 
me, that that will not occur, that these alarms--in addition, I 
understand as of 2010 on MILCON is new quarters, particularly 
for their forensic operation. And I am told that the quarters 
that they currently occupy are pretty dismal and that it would 
be--but I have not been there and I do not know for myself.
    Final thing, and I do not know that you have got any 
influence on this, in these minutes, they make reference to the 
Defense Intelligence Agency (DIA) possibly moving Stoney Beach 
to Japan from where Stoney Beach is currently headquartered; 
again, too remote from where the action is and something that 
sends the wrong signal with the President coming into Southeast 
Asia. And so they are concerned that that is not a good move to 
make.
    And if you could comment on those things, it would be very 
helpful.
    Admiral Fallon. Yes, sir. I think, first of all, there have 
been some issues with the JPAC budget over this year. We in the 
Pacific Command act as the agent for that money. We are not the 
people that determine how much money is going to be allocated 
to whatever purpose. This is done by Defense Prisoner of War/
Missing Personnel Office (DPMO). Because we are on scene and I 
have oversight over JPAC, we exercise that administrative 
authority over that budget. But, of course, we are very 
interested in it, because I think the role the JPAC plays in 
our overall Pacific strategy, Asia Pacific strategy is 
significant.
    Without getting into the detail of all the dollar amounts, 
we have just been informed in the past week that an agreement 
has been reached back here in which some money is going to be 
made available, both by DPMO and the Navy, to, I think, square 
the accounts here this year.
    But if you would recognize, too, that there are a lot of 
competing priorities here in the region, and JPAC is one of 
them. But we are going to work with them as best we can and try 
to square the thing.
    I cannot address the DIA issue at all. That is news to me. 
I will do some research and get back to you on that one, sir.
    [The information referred to can be found in the Appendix 
beginning on page 131.]
    Mr. Marshall. I appreciate it. Thank you for your service.
    Admiral Fallon. Yes, sir. Thank you, sir.
    Dr. Schwarz. Mr. Larsen has asked for an extra couple of 
minutes. Without objection, Mr. Larsen for an extra couple of 
minutes. And then we need to adjourn.
    Mr. Larsen. It will just be an extra couple of minutes, Mr. 
Chairman.
    Admiral Fallon, I want to go back to something I asked in 
my last round, and I want to make perfectly clear that I was 
not asking to put you on the spot about preparing that response 
from the Chinese military leadership to Myanmar and North 
Korea. So I will take responsibility for it. I think it is 
important for the Chinese military leadership to understand 
that if that is the kind of response that we get when we make a 
phone call, they should not wonder why we have concerns about 
their transparency. And that has to be a message that we will 
continually communicate very clearly to them.
    There was an attempt at transparency recently. 
Representative Mark Kirk and Tom Feeney and I visited China in 
January. We were allowed to go to Jiuquan Space Launch Center 
in the middle of the Gobi Desert, a little cooler in January 
than perhaps most of PACOM's service area. But we were allowed 
to go out there and ask questions, go in the vehicle assembly 
building, all at the permission of Defense Minister Xao. So 
there is an attempt, but we wanted to make clear to them as 
well that as important as this is, there is a long way to go on 
transparency.
    I was wondering as well on the military-to-military, if you 
could be more specific, perhaps on paper and get back to us if 
there are specific steps that you think that we can stand 
behind on the committee and push. We just met with Ambassador 
Zhou this morning from the Chinese embassy, and we can talk to 
him directly and push with the Division of Foreign Affairs 
within the Ministry of Defense as well if there are some 
specific things that we can do.
    And then, General Bell, you mentioned earlier the ROK, in 
your opinion, is fully capable of defending itself against a 
Democratic People's Republic of Korea (DPRK) invasion and it 
wants an independent combat command, which would result in 
perhaps relatively more U.S. Navy and U.S. Air Force compared 
to Army and Marine presence on the peninsula.
    Can you talk about the timing of that?
    Why don't we start there and then go back to Admiral 
Fallon?
    General Bell. Thank you. It is premature to talk timing 
beyond the current negotiations that we have gone through with 
our ally and the programs that we have laid out. We do have a 
very vigorous consultative process. We meet, essentially, 
monthly at the ministry of defense level between Washington and 
the Republic of Korea. Whether that is done in Hawaii or Guam 
or Seoul or even here in Washington, very active, and we talk 
frequently about these issues.
    What we have asked, quite frankly, last October, so about 
six months ago, both ministers of defense, Minister Ying from 
the Republic of Korea and Secretary Rumsfeld, agreed to look at 
this independent combat command issue. And so this has been on 
the table for several months.
    We have a committee that is looking at that and saying, 
``Okay, if and when this transfer is made from shared command 
to independent command, what are the functions of the U.S. 
military that the ROK military would still need so that as 
allies we can guarantee deterrence and victory should 
deterrence fail?'' And we are in the process of doing that. We 
are aggressively working with our ROK ally to lay out those 
mission sets.
    So our hope is the next time the two ministers of defense 
get together in October, that we will have this sorted out 
largely in terms of timelines and that they will agree to 
timelines at that point. That is our goal. I am certain we will 
meet that.
    So if I could defer until October and tell you then, 
because I think we will publish where we see these timelines 
going, that is our goal and our intention. Thank you.
    Admiral Fallon. Mr. Larsen, just to come back, first of 
all, let the record show that on my visit to China last year I 
was very warmly received at every level, from foreign minister 
to General Xao, General Leong, at every level welcomed and made 
to feel quite at home. The challenge is in getting substantive 
engagement on issues.
    I had strong concurrence from their side that we ought to 
have more mil-to-mil. Got it. An offer to travel more 
extensively in the country, for me to come back on subsequent 
visits and see the western part of the country and a number of 
other places.
    But what remains is to actually get into substantive 
dialogue at levels below four-star level, and that is a 
challenge. Even yesterday, I received a note back from General 
Leong who is the chairman-equivalent, closest we can get, 
regretting his inability to attend our Asia Pacific Chiefs of 
Defense conference that is teed up for eight months from now, 
citing scheduling problems.
    The other nations in the Asia Pacific area come to me and 
they say, ``What is the problem? Why is it that we cannot get 
their reps to come and engage? `` They will go to other 
countries but it seems that when we are involved, we still have 
some challenges. I think some of this is the system, the 
communist system. They do not delegate a whole lot down to the 
local level; they want central control of everything. And 
certainly not the way we run things. And does this mean we give 
up and stand back and say, ``Ah, the heck with you''? No. I 
think we have just got to redouble our efforts to crack the ice 
here and get moving.
    Mr. Larsen. Yes.
    Thank you.
    Thank you, Mr. Chairman.
    Dr. Schwarz. Admiral Fallon, thank you so very much for 
being with us this morning, the holder of the most historic 
command in the U.S. Navy. I want to call you CINCPAC.
    And, General Bell, awfully good to see you again, sir. 
Chattanooga moccasin.
    General Bell. Absolutely.
    Dr. Schwarz. Thanks very much, gentlemen, for being here.
    The committee is adjourned.
    [Whereupon, at 12:13 p.m., the committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             March 9, 2006

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 9, 2006

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T2986.001
    
    [GRAPHIC] [TIFF OMITTED] T2986.002
    
    [GRAPHIC] [TIFF OMITTED] T2986.003
    
    [GRAPHIC] [TIFF OMITTED] T2986.004
    
    [GRAPHIC] [TIFF OMITTED] T2986.005
    
    [GRAPHIC] [TIFF OMITTED] T2986.006
    
    [GRAPHIC] [TIFF OMITTED] T2986.007
    
    [GRAPHIC] [TIFF OMITTED] T2986.008
    
    [GRAPHIC] [TIFF OMITTED] T2986.009
    
    [GRAPHIC] [TIFF OMITTED] T2986.010
    
    [GRAPHIC] [TIFF OMITTED] T2986.011
    
    [GRAPHIC] [TIFF OMITTED] T2986.012
    
    [GRAPHIC] [TIFF OMITTED] T2986.013
    
    [GRAPHIC] [TIFF OMITTED] T2986.014
    
    [GRAPHIC] [TIFF OMITTED] T2986.015
    
    [GRAPHIC] [TIFF OMITTED] T2986.016
    
    [GRAPHIC] [TIFF OMITTED] T2986.017
    
    [GRAPHIC] [TIFF OMITTED] T2986.018
    
    [GRAPHIC] [TIFF OMITTED] T2986.019
    
    [GRAPHIC] [TIFF OMITTED] T2986.020
    
    [GRAPHIC] [TIFF OMITTED] T2986.021
    
    [GRAPHIC] [TIFF OMITTED] T2986.022
    
    [GRAPHIC] [TIFF OMITTED] T2986.023
    
    [GRAPHIC] [TIFF OMITTED] T2986.024
    
    [GRAPHIC] [TIFF OMITTED] T2986.025
    
    [GRAPHIC] [TIFF OMITTED] T2986.026
    
    [GRAPHIC] [TIFF OMITTED] T2986.027
    
    [GRAPHIC] [TIFF OMITTED] T2986.028
    
    [GRAPHIC] [TIFF OMITTED] T2986.029
    
    [GRAPHIC] [TIFF OMITTED] T2986.030
    
    [GRAPHIC] [TIFF OMITTED] T2986.031
    
    [GRAPHIC] [TIFF OMITTED] T2986.032
    
    [GRAPHIC] [TIFF OMITTED] T2986.033
    
    [GRAPHIC] [TIFF OMITTED] T2986.034
    
    [GRAPHIC] [TIFF OMITTED] T2986.035
    
    [GRAPHIC] [TIFF OMITTED] T2986.036
    
    [GRAPHIC] [TIFF OMITTED] T2986.037
    
    [GRAPHIC] [TIFF OMITTED] T2986.038
    
    [GRAPHIC] [TIFF OMITTED] T2986.039
    
    [GRAPHIC] [TIFF OMITTED] T2986.040
    
    [GRAPHIC] [TIFF OMITTED] T2986.041
    
    [GRAPHIC] [TIFF OMITTED] T2986.042
    
    [GRAPHIC] [TIFF OMITTED] T2986.043
    
    [GRAPHIC] [TIFF OMITTED] T2986.044
    
    [GRAPHIC] [TIFF OMITTED] T2986.045
    
    [GRAPHIC] [TIFF OMITTED] T2986.046
    
    [GRAPHIC] [TIFF OMITTED] T2986.047
    
    [GRAPHIC] [TIFF OMITTED] T2986.048
    
    [GRAPHIC] [TIFF OMITTED] T2986.049
    
    [GRAPHIC] [TIFF OMITTED] T2986.050
    
    [GRAPHIC] [TIFF OMITTED] T2986.051
    
    [GRAPHIC] [TIFF OMITTED] T2986.052
    
    [GRAPHIC] [TIFF OMITTED] T2986.053
    
    [GRAPHIC] [TIFF OMITTED] T2986.054
    
    [GRAPHIC] [TIFF OMITTED] T2986.055
    
    [GRAPHIC] [TIFF OMITTED] T2986.056
    
    [GRAPHIC] [TIFF OMITTED] T2986.057
    
    [GRAPHIC] [TIFF OMITTED] T2986.058
    
    [GRAPHIC] [TIFF OMITTED] T2986.059
    
    [GRAPHIC] [TIFF OMITTED] T2986.060
    
    [GRAPHIC] [TIFF OMITTED] T2986.061
    
    [GRAPHIC] [TIFF OMITTED] T2986.062
    
    [GRAPHIC] [TIFF OMITTED] T2986.063
    
    [GRAPHIC] [TIFF OMITTED] T2986.064
    
    [GRAPHIC] [TIFF OMITTED] T2986.065
    
    [GRAPHIC] [TIFF OMITTED] T2986.066
    
    [GRAPHIC] [TIFF OMITTED] T2986.067
    
    [GRAPHIC] [TIFF OMITTED] T2986.068
    
    [GRAPHIC] [TIFF OMITTED] T2986.069
    
    [GRAPHIC] [TIFF OMITTED] T2986.070
    
    [GRAPHIC] [TIFF OMITTED] T2986.071
    
    [GRAPHIC] [TIFF OMITTED] T2986.072
    
    [GRAPHIC] [TIFF OMITTED] T2986.073
    
    [GRAPHIC] [TIFF OMITTED] T2986.074
    
    [GRAPHIC] [TIFF OMITTED] T2986.075
    
    [GRAPHIC] [TIFF OMITTED] T2986.076
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 9, 2006

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. HUNTER

    The Chairman. If you give us this take on the South Korean 
military, 21 divisions; is that roughly accurate?
    General Bell. Total number of ROK Divisions is 47 (22 Active and 25 
Reserve). Breakdown is as follows:

    <bullet>  Active: 17 Infantry Divisions and 5 Mechanized Divisions 
(Total 22)
    <bullet>  Reserves: 13 Homeland Reserve Divisions (HRD) and 12 
Mobilized Reserve Divisions (MRD) (Total 25)

    The Chairman. Given the vastness of the theater and range of 
possible threats, is the Fleet Response Plan sufficient?
    Admiral Fallon. [The information referred to is classified and 
retained in the committee files].
    The Chairman. What is the status of planning efforts for the build 
up of Defense forces and infrastructure on Guam and U.S. Pacific 
Territories? To what extent has this been linked with other planning 
efforts in the PACOM area of responsibility? What are the cost 
estimates associated with funding this build up?
    Admiral Fallon. USPACOM has taken the lead role in coordinating 
various Service planning and infrastructure expansion initiatives on 
Guam. This joint planning process has been underway since March 2005 
and received additional emphasis since the recently announced plan to 
transfer significant USMC personnel and capabilities from Japan to 
Guam. This joint effort has been examining infrastructure, facilities, 
support requirements and environmental considerations and will provide 
DOD leadership detailed data to make informed decisions regarding Guam 
and Commonwealth of Northern Marianas. A final report is expected by 
July 2006.
    Planning activities in Guam are closely linked with each of the 
Service initiatives as well as regional planning efforts.
    At the recently concluded U.S.-Japan negotiations, the Government 
of Japan agreed to provide $6.09 billion of the currently estimated 
$10.27 billion required for the Marine Corps relocation from Okinawa to 
Guam. The U.S. will fund the remainder of the required infrastructure 
improvements. USPACOM is working closely with the Services and DOD to 
ensure resources are programmed for the MILCON needed to support these 
force posture changes.
    The Chairman. What impact will the buildup in the Pacific have on 
the training and mobility requirements and capabilities for Guam and 
U.S. Pacific territories?
    Admiral Fallon. As U.S. force capabilities are adjusted, training 
facilities and capabilities on Guam and the Northern Marianas will need 
to be expanded and improved. The same is true for mobility requirements 
and capabilities.
    Currently available training airspace and target ranges on Guam 
will not adequately support the robust aircraft/aircrew training or the 
next generation of aircraft being envisioned for Guam. Farallon De 
Medinilla (FDM), the only live ordnance range in the area, is not 
compatible with current or future advanced weapons capabilities. The 
small land footprint, lack of scoring instrumentation, and encroachment 
issues at FDM severely restrict the types and quantities of training 
munitions that can be used. FDM lacks RADAR coverage and air 
controllers as well as telemetry devices for scoring accuracy and 
feedback to aircrews. The Joint Guam Military Master Plan Working Group 
is studying these challenges and will recommend appropriate solutions/
mitigations.
    Navy training facilities available on Guam are not at desired 
levels. Simulators available to CONUS units, for example, do not exist 
on Guam. The Guam Distance Learning Center is being upgraded to provide 
training to Guam homeported submarines (SSN). The Center can currently 
provide 23 of the required 101 courses for SSN training and upgrading 
the number of courses available. Forward Deployed Naval Forces units 
have historically relied on actual operations and U.S./Coalition field 
exercises to provide training and experience.
    The mobility requirements and capabilities necessary to operate 
from Guam and the Northern Marianas will increase with the 
repositioning of U.S. Forces. More intra-theater lift sorties will 
likely be required to deploy our forces for potential contingencies.
    Newly acquired C-17s in Hawaii and Alaska plus C-5 enhancements, 
and the development/acquisition of High Speed Vessels will facilitate 
the ability to deploy forces and respond to crises.
    The Chairman. To what extent will the build up of defense forces 
and infrastructure on Guam and U.S. Pacific territories have on the 
need to provide additional family housing and barracks quarters, 
operational and administrative facilities, base operation and support 
services, joint basing opportunities, medical, and education resources?
    Admiral Fallon. The USPACOM directed Joint Guam Development Group 
and the Joint Guam Military Master Plan (JGMMP) are identifying the 
infrastructure required to base additional capabilities and forces on 
Guam. This effort incorporates both operational and quality of life 
issues and is well under way with the JGMMP expected to be completed by 
July 2006. The JGMMP will include each function and outline 
infrastructure, facilities, and support needs, including medical and 
education facilities, for all active duty personnel. The planners are 
emphasizing opportunities for joint-use and joint basing and seek to 
avoid redundancy.
    We envision a Joint Base framework on Guam, which would include all 
military forces on-island, regardless of Service. The Deputy 
Undersecretary for Installations and Environment has been spearheading 
processes and procedures to implement joint basing. USPACOM and Service 
Components are linked to this effort.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TAYLOR
    Mr. Taylor. How long could your troops be self-sufficient? If for 
whatever reason the sea lanes were blocked and other contingencies 
around the world were gobbling up supplies at an unanticipated rate, 
how long could your troops be self-sufficient?
    General Bell. [The information referred to is classified and 
retained in the committee files.]
    Mr. Taylor. Is that number the same as, more than or less than four 
years ago today? For the record, I would like that number in whatever 
manner you choose to present it.
    General Bell. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN
    Mr. Larsen. General Bell, you mentioned the ROK, in your opinion, 
is fully capable of defending itself against a Democratic People's 
Republic of Korea invasion and it wants an independent combat command, 
which would result in perhaps relatively more U.S. Navy and U.S. Air 
Force compared to Army and Marine presence on the peninsula.
    Can you talk about the timing of that?
    General Bell. A roadmap for the Republic of Korea achieving 
independent wartime operational command is an agenda item for 
discussion at the 38th Security Consultative Meeting in October 2006. 
The United States Secretary of Defense and the Minister of National 
Defense for the Republic of Korea will discuss and determine the manner 
and the timing in which these issues will be resolved. A combined ROK/
US study effort is on-going and will make appropriate recommendations 
to both nations in time for the October meeting. Following that 
session, we should have more clarity on future timing.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. SNYDER
    Dr. Snyder. Where is the obstacle in the development of military-
to-military relations with China?
    Admiral Fallon. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. DRAKE
    Mrs. Drake. Admiral Fallon, it is my understanding that Pacific 
Command has begun testing a new targeting system known as WEEMC (Web-
Enabled Execution Management Capability), which is a net-centric 
version of an existing system known as JADOCS (Joint Automated Deep 
Operations Coordination Systems) already in use by many of our 
combatant commands, including Central Command.
    I have requested from the Air Force testimony directly from the 
warfighter commenting on the capability of a web-enabled JADOCS. In an 
effort to justify the funds used to web-enable an existing system, can 
you provide me with feedback on the capability afforded your command by 
the use of WEEMC.
    Admiral Fallon. Web-Enabled Execution Management Capability (WEEMC) 
is currently under development and is yet to be tested in the field. 
Joint Force Commanders, Component Commanders, and tactical level forces 
are still using the Joint Automated Deep Operations Coordination System 
(JADOCS) to manage operational and tactical level fires. The planned 
follow-on capability--the net-centric web-Enabled Execution Management 
Capability--is intended to make collaboration faster, easier, and more 
accurate.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. I am working currently with this committee to 
increase the vehicle authorization to two for service members assigned 
to, well, any of the European locations, I guess, Guam, Hawaii. I know 
this is very important to our serving families, especially working 
spouses. And I would be pleased if either yourself or the General, the 
both of you, could comment on how service members in PACOM's area of 
responsibility would feel about such an increased authorization.
    I know that many of my constituents, service families, have asked 
me about it, and I do know that I think it was explained earlier that 
you do have the used cars that go from one family to another, but there 
is also when they are assigned overseas sometimes families have to sell 
a second car and many times they are losing on a deal such as that when 
the time for deployment is quick.
    So do you have any comments on a two-vehicle authorization?
    Admiral Fallon. According to a 2003 Hawaii survey, most military 
families have a second POV. Thesurvey of 4000 married military members 
yielded the following results: 83% owned at least two vehicles; 79% 
used the second vehicle for spousal employment and education. The 
second POV was also commonly used for shuttling children to and from 
school and extracurricular activities. A 2005 survey of approximately 
3200 military members yielded similar results. Of note, the 2005 survey 
included 851 respondents assigned to Guam.
    To meet the need for a second vehicle, military members either (1) 
sell a POV stateside, usually at a loss, and purchase another vehicle 
upon reassignment or (2) pay to ship a second vehicle at a cost ranging 
from $1000-$3000.
    Although most members own two POVs, it is not clear authorizing a 
two-POV shipment at government expense is affordable. I will ensure the 
Services are aware of your concern.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. MARSHALL
    Mr. Marshall. Reference was made to the Defense Intelligence Agency 
(DIA) possible moving Stoney Beach to Japan from where Stoney Beach is 
currently headquartered; again, too remove from where the action is and 
something that sends the wrong signal with the president coming into 
Southeast Asia. And so they are concerned that that is not a good move 
to make.
    If you could comment on this, it would be very helpful.
    Admiral Fallon. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ANDREWS
    Mr. Andrews. I continue to be concerned about the issue of 
relations across the Taiwan Strait and our preparedness for potential 
escalation in the region. I believe we must look to the past to correct 
any deficiencies in our ability to act in the region, and to the future 
to do as much as we can to promote a peaceful resolution to Taiwan-
China relations.
    First, I would like to ask about communications between the US 
military and that of the Republic of China. In 1996, President Clinton 
sent two aircraft carriers to the region in response to China's 
belligerent firing of missiles in the waters off Taiwan's coast. When 
they got there, I am told that our military realized that there was no 
established communications channel from us to the Taiwanese military. I 
understand that there has been improvement in the communication 
channels between the two militaries, but I wanted to find out your 
opinion of our current ability to communicate with the Taiwanese 
military. Without divulging any confidential information, can you tell 
us whether there are any established high-level, direct and regular 
communications between the two militaries now? What could be done to 
improve our ability to coordinate with the Taiwanese if necessary in 
the future?
    Admiral Fallon. [The information referred to is classified and 
retained in the committee files].
    Mr. Andrews. Second, I believe that actions by China with respect 
to Taiwan give observers reason to be concerned about their intentions. 
According to the latest Quadrennial Defense Review, China is 
significantly developing its military in a way that may seriously 
destabilize cross-Strait relations with Taiwan. The QDR states:
    Of the major and emerging powers, China has the greatest potential 
to compete militarily with the United States and field disruptive 
military technologies that could over time offset traditional U.S. 
military advantages absent U.S. counter strategies. Further, ``China 
continues to invest heavily in its military, particularly in its 
strategic arsenal and capabilities designed to improve its ability to 
project power beyond its borders.''
    Additionally, the QDR reveals that most of Beijing's military 
modernization plans are carried out in secret, and suggests that 
``China is likely to continue making large investments in high-end 
asymmetric military capabilities, emphasizing electronic and cyber-
warfare; counter-space operation; ballistic and cruise missiles; 
advanced integrated air defense systems; next-generation torpedoes; 
advanced submarines; strategic nuclear strike from modern, 
sophisticated land- and sea-based systems; and theater unmanned aerial 
vehicles for employment by the Chinese military and for global 
export.''
    Mr. Chairman, Admiral Fallon, I am deeply concerned about these 
developments. I fear that they suggest that China may be preparing for 
military superiority in any potential conflict with Taiwan, and that 
these weapons systems may be specifically designed to prevent the 
United States from coming to Taiwan's assistance.
    I feel that US policy with regard to Taiwan must be made clear to 
the Chinese; that they should dismantle their 784 missiles aimed at the 
island, that they must settle their differences with the Taiwan 
peacefully (as is US policy), and that they should normalize their 
relations with the democratically-elected leaders on the island.
    In your view, how do US capabilities in the region match the 
expected growth in capabilities of the Chinese, and would you have any 
advice for the Taiwanese military to prepare to confront the growing 
Chinese threat?
    Admiral Fallon. [The information referred to is classified and 
retained in the committee files].
    Mr. Andrews. Finally, it is my belief that in the face of any 
hostility from the Chinese towards Taiwan, the US should be prepared to 
act decisively. Are you at liberty to share with me any plans that 
Pacific Command has in place if the Chinese were to act on threats of 
violence against Taiwan?
    Admiral Fallon. [The information referred to is classified and 
retained in the committee files].

                                  <all>

</pre></body></html>
